Tennessee Valley Region
Table of Contents
Message from the Inspector General.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 4

Special Feature & Noteworthy Undertakings. . . . . . . . . . . . . . . . . . . . . . . . . . . 6

Executive Overview. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 14

Office of the Inspector General .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 18

Summary of Representative Inspections.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 22

Summary of Representative Audits.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 26

Summary of Representative Investigations.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 34

Legislation and Regulations.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 40

Appendices.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 42

Appendix 1 – Index of Reporting Requirements Under the Inspector General Act .  .  . 43

Appendix 2 – Audit and Inspection Reports Issued. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 44

Appendix 3 – Audit and Inspection Reports Issued With Questioned
 and Unsupported Costs and Recommendations for Better Use of Funds.  .  .  .  .  .  .  . 46

Appendix 4 – Audit and Inspection Reports with Corrective Actions Pending.  .  .  .  .  . 48

Appendix 5 – Investigative Referrals and Prosecutive Results.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 49

Appendix 6 – Highlights.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 50

Appendix 7 – Statement of Richard W. Moore before the Subcommittee on
 Water Resources and Environment.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 51

Glossary, Abbreviations, and Acronyms.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 53




                                                                                                                                                                                            t
                                                                                                                                                                                            v
                                                                                                                                                                                            a

                                                                                                                                                                                            3
                                                                                                                                                                                            o
                                                                                                                                                                                            i
                                                                                                                                     Semiannual Report | October 1, 2009 – March 31, 2010
                                                                                                                                                                                            g
                                  Message from the Inspector General




Semiannual Report | October 1, 2009 – March 31, 2010
Message From The Inspector General
The Tennessee Valley Authority continues to live under the cloud of
the Kingston ash spill of December 2008. The Office of the Inspector
General is reminded of this shadow every day through our continuing
review of TVA’s efforts to return the Kingston area to its former state.
We see TVA making steady progress on the physical cleanup; but
more importantly, we see signs of an improvement in the TVA culture
that contributed to this unfortunate environmental event.

In this semiannual report, we ask the          management opting for “a better way,”
question, Culture: Asset or Liability?         without coordinating with TVA engineers
The Kingston incident demonstrated             despite clear professional engineering
that a culture at a TVA fossil fuel plant      reports recommending specific design
which treats coal ash management like          changes.
“taking out the garbage” can be a severe
liability. Unfortunately, culture has been     TVA must start at the beginning. The
treated as a “soft” issue by both TVA          beginning is to identify the specific
and the Office of the Inspector General.       philosophy (or philosophies) of its
                                               employees that represent a shared set            Richard W. Moore
While TVA has routinely taken a reading                                                         Inspector General
of culture through their “Cultural Health      of convictions which either promote the
Index” reviews each year, there has            mission of TVA or hinder that mission.
                                                                                              committed to distilling this data into a
been minimal effort until now to correct       That is the heart of culture. To start
                                                                                              useful form in order for TVA to make
cultural problems. As one scribe noted         anywhere else is wasted effort.
                                                                                              a better assessment of the state of its
in the aftermath of Kingston, “It takes a      The Office of the Inspector General at         culture. The goal is to surface what those
crisis.” It is now clear that culture is not   TVA has a role to play here. Through           employee values are (as opposed to
a “soft” issue that only affects employee      our audits, inspections, and investigations,   perhaps the values statement on a poster
retention or employee “satisfaction”           we are routinely presented with evidence       in the plant) so that TVA can start to
ratings. Culture, in a very real way, has      of the philosophy of TVA employees.            better align those values with the course
shown up on TVA’s balance sheet. It can        TVA can institute a standard procedure,        set by the TVA Board and TVA leadership.
literally make or break a company.             but without employee “buy-in” it is            As the special feature highlighting
                                               unlikely that the standard procedure           TVA’s new Organizational Effectiveness
TVA has not been alone in overlooking
                                               will survive the culture. We can say           Initiative demonstrates, TVA leadership
the impact of culture on its operations.
                                               this having seen this mode of operation        has launched a robust program to tackle
The Office of the Inspector General has
                                               repeated at TVA time after time.               the culture issue. This is an initiative that
historically identified “control issues”
                                                                                              receives broad support from the TVA
in areas like Information Technology           To identify the cultural issues we             Board and Tom Kilgore.
management, contracting, environmental         find in the course of our audits and
reporting, and land management. But            investigations, we are applying a new          Our cover for this semiannual report
like TVA, we have traditionally viewed         culture matrix with every report we            is a depiction of a spiral staircase in a
these issues as process problems to be         do. We will go beyond the normal audit         lighthouse leading up to the beacon. It
addressed by a better set of controls          process to determine whether or not            is emblematic of the step-by-step journey
and consistent compliance with those           there is an underlying attitude present        TVA is on to build a better culture that
controls. It is easy to treat culture as       which is a hindrance to good performance.      will truly be a company asset. Just
a “soft” issue. We now recognize that          Our Empowerline hotline (1-877-866-            like a lighthouse guides seafarers to
the repeat findings we have chronicled         7840 or oigempowerline.com) continues          a safe harbor, the TVA Board and TVA            t
over the years have emanated from a            to be a source of useful tips about not        management are sending a clear signal           v
culture that promotes ad hoc solutions                                                        of the right direction for TVA. The Office
                                               only fraud and employee misconduct, but                                                        a
and eschews compliance with uniform            also about cultural attitudes that tipsters    of the Inspector General is dedicated to
standards. In Kingston, we saw plant           see displayed in their work areas. We are      supporting this mission.                        5
                                                                                                                                              o
                                                                                                                                              i
                                                                                 Semiannual Report | October 1, 2009 – March 31, 2010
                                                                                                                                              g
                                                       Special Feature & Noteworthy Undertakings




Semiannual Report | October 1, 2009 – March 31, 2010
S P E C I A L F E AT U R E :

The Culture Risk Connection
Every company has a culture. Risk assessment is something                                 Prior to the OIG issuing its report,
                                                                                          TVA engaged Stantec, an engineering
companies commonly claim to do. But, how many companies
                                                                                          company, to rigorously inspect,
consider the impact culture itself has on risk assessment?                                evaluate, and make recommendations
                                                                                          on ash storage facilities at all its fossil
                                                                                          plants. In addition, TVA engaged
“Not many,” says Organizational/Industrial Psychologist Dr. Michael McIntyre,
                                                                                          McKinsey & Company, a consulting firm,
Ph.D., “at least not on paper,” he adds. “People usually know the difference between
                                                                                          to address the cultural issues brought to
right and wrong, but they don’t always know how to or feel safe in applying the
                                                                                          light as a result of the ash spill.
difference, especially when the culture supports turning a blind eye to what
potentially could be a problem.”                                                          During our review, TVA retained the
                                                                                          firm of McKenna Long & Aldridge,
McIntyre affirms there is a link between culture and organizational risk and that
                                                                                          LLP, a national expert in independent
culture affects how risk is viewed. “For example, historically, companies that have
                                                                                          investigations, to conduct an
operated as a monopoly, where they have little to no competition, can often get
                                                                                          independent factual investigation of
fixated on profit-margin and view customer service as a lower priority/low-risk
                                                                                          the Kingston spill and its implications
area.” McIntyre explains. “This can work for a while if the company doesn’t have
                                                                                          relating to systems, controls, and
much competition, but as soon as there is a new game in town and customers have
                                                                                          culture. On July 21, 2009, the Board
another viable option, the company, can and likely will, see a significant profit loss.
                                                                                          approved a resolution to address the
Essentially, there needs to be a strategic and comprehensive approach to achieving
                                                                                          failures identified in the McKenna
organization-wide goals and assessing risk so that functions of the organization
                                                                                          report. At the same board meeting,
that are intrinsically-linked are considered equally in importance to achieving
                                                                                          the Board directed TVA management
overall goals.”
                                                                                          to develop an extensive remediation
In the case of the Tennessee Valley Authority (TVA), the organization has had an          plan in response to the independent
Enterprise Risk Management, or ERM, process that has been in place since 1999.            investigation of the Kingston ash spill,
However, the TVA Office of the Inspector General (OIG) released a report in July          various reports by the TVA Inspector
2009 that concluded prior to the December 22, 2008, historic coal ash spill at            General, and recommendations by TVA
TVA’s Kingston Fossil Plant and despite internal knowledge of risks associated            management.
with ash ponds, TVA had not identified ash management as a risk. While over
                                                                                          As a result of this resolution, TVA
the years there was internal discussion about placing the ash ponds under TVA’s
                                                                                          created the Organizational Effectiveness
Dam Safety Program, which would have required more rigorous inspections and
                                                                                          Initiative, OEI, under the responsibility
engineering of the ash ponds, TVA chose not to do this.
                                                                                          of TVA Vice President John Thomas.
The July 2009 report assessed TVA’s root cause analysis and evaluated TVA                 Assisted by McKinsey and Company,
management’s role regarding ash storage and found that managing ash storage               TVA has started a major organizational
was a low priority. The report also concluded that TVA could have possibly                restructuring effort that is being
prevented the Kingston spill if it had taken recommended corrective actions.              overseen by the OEI team. Thomas
TVA was aware of “red flags” that were raised over a long period of time                  explained that McKinsey and Company
signaling the need for safety modifications to TVA ash ponds.                             is transitioning out of its active role in
                                                                                          assisting with TVA’s cultural change
Another conclusion of the OIG’s report was that the attitudes and conditions              initiative to allow TVA’s OEI Team to
at TVA’s fossil fuel plants emanated from a legacy culture that impacted the way          lead the charge.                              t
TVA handled coal ash. Ash was relegated to the status of garbage at a landfill                                                          v
rather than treating it as a potential hazard to the public and environment. TVA
                                                                                                                                        a
management generally agreed with the findings of the report.
                                                                                                                                        7
                                                                                                                                        o
                                                                                                                                        i
                                                                              Semiannual Report | October 1, 2009 – March 31, 2010
                                                                                                                                        g
    Thomas explained the five-category approach to addressing culture change at TVA.

     1. O
         rganizational Restructuring         3.	Operating Policies and Procedures
        Align the business for optimal            Create and implement a consistent
        performance. This undertaking             company-wide architecture to
                                                                                         their progress so that TVA employees
        has already started with                  enhance clear decision-making.
                                                                                         can readily access the information.
        top-level executives and
                                              4.	 Skill Sets                            They’ve even posted questions from
        upper management.
                                                   Develop processes to continually      TVA employees along with the OEI
     2.	Governance and Accountability             develop and identify skill gaps.      team’s answers so all TVA employees
         Create a clear framework                                                        can view them.
         around responsibilities and          5.	Rewards and Recognition
                                                  Improve performance management         Thomas explained that though the
         accountabilities for every
                                                  process to increase effectiveness      cultural change process has started
         employee.
                                                  and accountability.                    with TVA executives and upper
                                                                                         management, the OEI team along with
                                                                                         McKinsey and Company wanted to pilot
    In regard to decision-making which        is this going to impact? What’s the        their cultural change framework with
    falls under the Operating Policies        reputational risk? What would be           frontline employees. He explained
    and Procedures category, Thomas           the perception of this decision on the     the criteria for selecting their test
    indicated that employees needed clear     external world?”                           group included finding a TVA facility
    understanding of what their decision                                                 that was somewhat complex so
    rights were. In analyzing TVA culture,    According to Thomas, this conscience       that a representative sample size of
    the OEI team found that people didn’t     structure will eliminate the               employees could be obtained. It was
    really know what their decision rights    individualistic decision model by having   equally as important to conduct the
    were and that there were decisions        a structured, thought-out process for      test at a facility where the management
    that went high in the organization        decision-making.                           team was open to new ideas and would
    that could’ve been made at a lower                                                   be engaged in the process. Paradise
                                              Thomas emphasized that the OEI team
    level. Conversely, there were issues of                                              Fossil Plant in Kentucky fit the bill.
                                              wants the culture change process to be
    significance that probably should have    transparent and in that spirit, they’ve    The goal of the pilot was to improve
    been elevated to a higher level that      created an internal Web site detailing     performance and accountability at
    weren’t.

    “If it’s not documented and it’s not
    clear, then decision-making becomes
    individualistic,” Thomas said. “People
    who are more conservative are going
    to go ask and people who are more
    emboldened are just going to go do.
    What we’re trying to build is a well-
    thought out, conscience structure that
    guides the decision-making process.”

    Thomas indicated creating this
    awareness among employees empowers
    them to ask strategic questions in
t   regard to risk such as: “What’s the
v   risk inherent in this decision? What’s
    the financial impact of this decision?
a
    How many dollars are at stake here?
    How many people in the organization
8
                                                                                                   PARADISE FOSSIL PLANT
o
i
    Semiannual Report | October 1, 2009 – March 31, 2010
g
                                                   Paradise employees, from left, are Scott Layne, Todd Robinson, Kelly Free,
                                                   Aaron Melda and Wayne Scott. Melda is plant manager, and the others are
          PARADISE FOSSIL PLANT
                                                                  Power House Maintenance boilermakers.



every level. The pilot was intended         changed, success would be
to help employees and management            apparent in the way TVA
identify ways to improve the most           does business.                     PARADISE: FACTS & FIGURES
significant gaps in the plant’s
operational and organizational              “Clarity in conversation        • Paradise has three coal-fired generating units.
performance. Since the plant-               can be a positive indicator
                                                                            • Construction began in 1959 and was
effectiveness pilot at Paradise Fossil      of cultural change,”
                                                                               completed in 1970.
Plant began last December, almost           Thomas said. “When
                                            people understand               • The winter net dependable denerating
400 Paradise employees have
                                            and can communicate                capacity is 2,273 megawatts.
contributed more than 1,300 ideas
that could eventually save TVA more         exactly what their roles        • The plant consumes some 20,000 tons
than $60 million annually. The lessons      are, what’s expected of            of coal a day.
learned from the pilot have been and        them and how they are
will continue to be used to identify        held accountable for
tools and techniques that can be            performance, the change
applied across the organization             becomes apparent. At that point, you
and demonstrate examples of                 don’t have to have a metric to know
successful change.                          there’s clear understanding where
                                            there wasn’t before. Just like you don’t
When asked how culture change               need a metric to prove Tiger Woods
throughout TVA would eventually             has an image problem, the same is
be measured, Thomas responded               true for culture. When the culture is                                                t
that the cultural health indexes TVA        generally healthy, people talk about it.                                             v
normally conducts yearly will be used       It becomes transparent and evident in                                                a
as benchmarks to gauge culture change.      the way we do business, the way we
But, as far as knowing if the culture has   communicate internally and externally.”                                              9
                                                                                                                                 o
                                                                                                                                 i
                                                                          Semiannual Report | October 1, 2009 – March 31, 2010
                                                                                                                                 g
     NOTEWORTHY UNDERTAKINGS
     > Inspector General                      	 E
                                                  xcerpt from Inspector General                My point here this morning is simply
        Moore Testifies                          Moore’s December 9, 2009                       this: the challenge for TVA is a culture
        to Congress on                           Congressional Testimony to the                 that is highly resistant to reform.  The
        December 9, 2009                         House Subcommittee on Water                    Kingston spill demonstrated that in
     The Tennessee Valley Authority, the         Resources and Environment of the               a dramatic way.  Changing a culture
     nation’s largest public power provider,     Committee on Transportation and                takes time. The same culture that
     has been under intense congressional        Infrastructure                                 existed on December 22, 2008, still
     and public scrutiny since the coal ash                                                     exists today.  Its residual effect is likely
                                               	 T
                                                  his is not the first time that TVA           to be felt for years to come.
     spill of December 22, 2008, in which
                                                 has been under the microscope
     5.4 million cubic yards of ash from
                                                 nor the first time that findings and         	 D
                                                                                                 espite all of this, I remain optimistic
     its Kingston Fossil Plant poured onto
                                                 recommendations for significant                that the current efforts to effect
     adjacent land and into the Emory River.
                                                 change have been made.  The McKenna            meaningful changes at TVA will be
     The spill has been deemed the largest
                                                 report aptly points out that in 1987,          successful for four reasons: (1) the
     environmental disaster in U.S. history.
                                                 in response to TVA’s nuclear safety            kinds of reforms being implemented
     In response to the spill, the TVA OIG       issues and sustained regular increases         at TVA are system-wide process
     released two reports in 2009--one on        in TVA’s rates, The Southern States            changes that have worked well in
     June 12 critiquing TVA’s response to        Energy Alliance Board created an               private sector companies and that
     the ash spill and another on July 23        advisory committee which found some            have not had the system failures TVA
     evaluating TVA’s root cause analysis        of the same problems with TVA in the           has experienced; (2) TVA management
     of the spill. These reports are posted      1980’s as we are finding today.  The           has demonstrated a willingness to
     on the TVA OIG Web site at oig.tva.         McKenna report also notes that my              solicit input from culture experts
     gov/2009audits.html.                        office has issued reports citing process       outside the Valley, and they appear
                                                 problems at TVA that continue to               to be taking all of this very seriously;
     TVA Inspector General Richard Moore         resurface over the years.                      (3) TVA management has recently
     has been at the forefront of the                                                           gone through an extremely
     discourse about these reports, briefing   	 W
                                                  hile it is true that none of the             robust evaluation of risks that is
     Congressional staffers and Congress as      attempts to reform TVA focused on              unparalleled in TVA history; and
     requested. Inspector General Moore’s        culture and risks to the extent that           (4) TVA management has made
     testimony is posted at oig.tva.gov/         has been done in the aftermath of the          personnel changes that, to me,
     testimony.htm.                              Kingston spill, it is clear that there are     provide credible evidence of a
                                                 some recurring themes in TVA history.          commitment to do whatever it
     	                                          One is that TVA has suffered from              takes to get this right.
                                                 an insular culture that shuns views
                                                 outside the “Valley.”  This defensive and
                                                 protectionist philosophy has produced
                                                 a tunnel vision that eschews input           > TVA Inspector
                                                 that might have aided in changing the           General Addresses
                                                 very culture that has contributed to            the Topic of Ethics
                                                 TVA’s current woes.  That same culture          to TVA Fuel Supply
                                                 resisted system-wide standards and              Vendors
                                                 accountability.  All of this is based on     TVA Inspector General Richard
t
                                                 an underlying philosophy that TVA’s          Moore highlighted his desire to build
v
                                                 uniqueness as a hybrid government            relationships with TVA employees as
a                                                agency exempted it from adherence            well as TVA vendor contract employees
      RICHARD MOORE TESTIFIES TO CONGRESS        to standards and uniform process.            at the TVA Fuel Supply Vendor Ethics
10
o
i
     Semiannual Report | October 1, 2009 – March 31, 2010
g
          Kingston Fossil Plant



                                                              appreciation for the      “The third piece of the triangle is a
                                                              difficulty surrounding    critical piece,” Inspector General Moore
                                                              this situation. In a      continued, revealing people rationalize
                                                              sense we’re asking you    their bad behavior. “Rationalization is
                                                              to trust us.”             the third piece of the fraud triangle.”

                                                              Moore explained the       Moore used the example of an employee
                                                              psychology of fraud by    rationalizing fraudulent behavior
                                                              using a recent news       by thinking, “I should’ve gotten that
                                                              story about famed         performance award. I deserve it,”
                                                              golfer Tiger Woods,       adding that rogue decision-making
                                                              who was accused of        “happens in good companies.”
                                                              being unfaithful to his
                                                              wife, as an example of    “We’re looking to make examples out
                                                              how people are lured      of people who’ve cheated us,” Moore
                                                              into questionable         continued. “We’re looking to partner
                                                              behaviors. “He’s          with people who don’t believe in fraud.
                                                              the gold standard in      As much as I want to make an example
                                                              the golfing world,”       out of someone who cheats us, we want
                                                              Inspector General         to make an example out of someone
      RICHARD MOORE BRIEFING TVA
         FUEL SUPPLY VENDORS                 Moore said in reference to Woods.          who cooperates with us.”
                                             “People say, ‘how does this happen?’”
                                                                                        “My message is: if we address this, it’s
                                             Moore then introduced the concept          better for you, it’s better for me, and it’s
and Compliance Forum on Friday,
                                             of the “Fraud Triangle” in relation        better for the organization,” Inspector
December 4, 2009. The presentation
                                             to decision-making. “An opportunity        General Moore concluded. “Don’t make
was part of a series of educational
                                             presents itself,” he explained.            us just own this. You own this too. So,
forums on ethics for contractor
                                             “Apparently, Tiger had a lot of            call us and we’ll work with you.”
employees.
                                             opportunity. There’s opportunity
                                                                                        The TVA OIG’s fraud-tip hotline, called
Moore presented along with TVA               to cheat at TVA. A lot of people see
                                                                                        the Empowerline, is operated away
Procurement General Manager of Fuel          opportunity, but they don’t have the
                                                                                        from TVA by a third-party contractor
Supply Jacky D. Preslar; Executive Vice      motivation, which is the second piece
                                                                                        and allows people to register a
President of Power Supply and Fuels          of the triangle.”
                                                                                        concern and remain completely
Van M. Wardlaw; TVA Assistant General
                                                                                        anonymous if they so choose. Contact
Counsel Ralph E. Rodgers; Senior Vice
                                                                                        the Empowerline at 1-877-866-7840
President of Corporate Responsibility
                                                THE FRAUD TRIANGLE                      or https://www.oigempowerline.com.
and Diversity Peyton T. Hairston, Jr.; TVA
                                                                                        The Empowerline is operated 24 hours
Chief Financial Officer Kim Greene; TVA
                                                                                        a day, seven days a week.
Power Supply and Fuels Compliance
Manager Mark Creech; and TVA Fuel
                                                                RA
                                                           TY




Assurance Manager Don Drumm.
                                                                  TIO
                                                          NI


                                                                    NA
                                                          U




Moore emphasized that TVA and
                                                       RT




                                                                      LIZ




TVA OIG have been clear about their                                                           A confidential connection for reporting fraud,
                                                     PO




                                                                        AT




                                                                                                      waste or abuse affecting TVA.
expectations in regard to personal                                                           www.OIGempowerline.com
                                                   OP




                                                                           IO




ethics, but indicated he wanted to be                                                            1-877-866-7840
                                                                            N




clear about what to do if someone                       MOTIVATION                            EmPowerline™ is sponsored by the Office of the Inspector General
                                                                                                           and operates independently of TVA.                    t
discovers “rogue” employees in                                                                                                                                   v
the organization. “We want you to                                                                                                                                a
tell us about it,” he said. “I have an
                                                                                                                                                                 11
                                                                                                                                                                 o
                                                                                                                                                                 i
                                                                            Semiannual Report | October 1, 2009 – March 31, 2010
                                                                                                                                                                 g
     >A
       ssessing                                                                              report on the removal of nine U.S.
      and Auditing                                                                            Attorneys, including McKay, in 2006.
      Catastrophic Risk                                                                       The report ascertained that evidence
     Inspector General Richard Moore and                                                      suggested the primary reason for
     Deputy Inspector General Ben Wagner                                                      McKay’s removal was a disagreement
     spoke at the March 2010 General                                                          with his then boss, Deputy Attorney
     Audit Management Conference of the                                                       General Paul McNulty.
     Institute of Internal Auditors to about
                                                                                              The report directed attention to
     70 participants. They shared the TVA
                                                                                              the fact that Gonzales, who was the
     OIG’s experience with the aftermath of
                                                                                              primary driver in the firings, stated in a
     the Kingston coal ash spill when more
                                                                                              Congressional testimony that he didn’t
     than five million cubic yards of wet
                                                                                              remember the November 2006 meeting
     coal ash spilled out of a retaining pond
                                                                                              where he approved the dismissals.
     into the Emory River and Watts Bar
     Reservoir and onto adjoining land.                JOHN MCKAY, LAW PROFESSOR              In 2008, Attorney General Michael
                                                indicates that in 2004 McKay decided          Mukasey, Gonzales’ successor,
     The presentation by Inspector
                                                not to bring voter fraud charges that         announced that, at best, the firings
     General Moore and Deputy Inspector
                                                could have undermined a Democratic            of the nine attorneys general
     General Wagner was titled “Assessing
                                                victory in a closely-fought gubernatorial     were haphazard, arbitrary, and
     and Auditing Catastrophic Risk.”
                                                race. McKay said he was asked about           unprofessional.
     It highlighted the challenges in
     enterprise risk management related         three months before he was fired why
                                                                                              McKay now draws from his experience
     to the identification, assessment, and     Republicans in the state of Washington
                                                                                              as an ousted U. S. Attorney in talks
     prevention of catastrophic risk; the       might be angry with him. McKay
                                                                                              across the country. He also tells
     keys to success; and, owning up to and     indicated that he didn’t bring forth
                                                                                              audiences that doing what they know
     addressing the consequences when a         voter fraud charges because there was
                                                                                              is right takes courage, and it could
     catastrophic event occurs.                 no evidence to support such allegations.
                                                                                              cost them their jobs one day, just as it
                                                Another March 21, 2007, Seattle Times         cost him his; but, being fired for doing
                                                article read, “In the span of less than a     what’s right is better than remaining
                                                month last summer, John McKay went            employed for doing what’s wrong.
     > Ethics Aren’t Easy                      from a candidate for a federal judgeship
     Doing what’s right isn’t always easy,                                                    The common theme of courage was
                                                with the support of his boss, Attorney
     just ask John McKay, who was the                                                         reiterated throughout the day by the
                                                General Alberto Gonzales, to an out-of-
     opening speaker at the TVA OIG’s ethics                                                  other guests who joined McKay in a
                                                favor employee who was about to lose
     conference that took place this past                                                     panel discussion on ethics moderated
                                                his job.”
     fall at the University of Tennessee’s                                                    by Dr. Michael McIntyre, Director of
     Conference Center in downtown              McKay warned at the OIG ethics                the University of Tennessee’s MBA
     Knoxville.                                 conference that doing the right thing         program, including:
                                                often means becoming unpopular
     McKay, a Law Professor at Seattle                                                        •	Dr. Daniel Klingensmith, Ph.D., an
                                                and risking being labeled a “trouble
     University, was dismissed by the                                                            Associate Professor of History and
                                                maker” or someone who’s not a “team
     Department of Justice under the Bush                                                        ethics teacher at Maryville College;
                                                player.” But, in the end, despite political
     Administration as U.S. Attorney for the
                                                pressure, doing the right thing was the       •	Dr. Bart Victor, Ph.D, a Cal Turner
     Western District of Washington in 2006,
                                                only thing McKay believed he could do            Professor of Moral Leadership at
     along with seven other U.S. Attorneys.
                                                and still feel good about himself.               Vanderbilt University; and
t    The controversy generated an
     onslaught of media attention including     McKay’s conviction to follow his own          •	Mr. Frederick Talbott, a published
v
     an article in the Washington Post that     ethical compass was perhaps rewarded             author, 1994-2009 clinical professor
a    questioned the motivation for McKay’s      in a 2008 Department of Justice Office           of management communications
     dismissal. The March 26, 2007, article     of Inspector General investigative               at Vanderbilt University, former
12
o
i
     Semiannual Report | October 1, 2009 – March 31, 2010
g
 investigative journalist who covered      >T
                                             VA OIG Poster Wins                     “The more TVA employees understand
 the Ku Klux Klan, government               Addy® Award                              they can help us fight fraud against
 mismanagement and the Iran Contra         The poster advertising the TVA            TVA by reporting suspicious actions,
 scandal, and member of the South          Inspector General’s fraud video           the more effective we will be,” said
 Carolina Bar Association.                 received two awards at Knoxville’s        Inspector General Moore. “I am
                                           45th Annual ADDY Awards dinner that       thankful that our effort in conveying
                                           took place Saturday, February 20, 2010,   this message is getting noticed, and
                                           at the Crowne Plaza Hotel in Knoxville,   that the quality of the work in
                                           Tennessee.                                advertising the message is so high.”

                                            The first award for the TVA OIG poster   The American Advertising Federation,
                                           was the Silver ADDY Award for color       a not-for-profit industry association
                                           photography, and the second award         conducts the ADDY Awards through
                                           was a Bronze Citation of Excellence.      its 200-member advertising clubs and
                                           The poster was used to promote TVA        15 districts. With more than 60,000
                                           Inspector General Richard Moore’s         entries annually, the ADDY Awards
                                           message throughout TVA on what            are billed as the world’s largest
                                           employees can do if they suspect          and, arguably, toughest advertising
                                           fraud is occurring in a TVA program       competition.
                                           or operation. It was submitted to
                                                                                     To watch the video go to:
     Frederick Talbott, Author             the ADDY competition by TradeMark
                                                                                     oig.tva.gov/int-highres.html
                                           Advertising.

Talbott was the keynote speaker during
lunch at the ethics conference. Talbott
emphasized the theme of courage in
talking about his father, who was a
used car salesman. Talbott explained
his dad refused to sell a customer
anything he wouldn’t drive himself.
Even when he felt pressured to fudge
on the worth of vehicles to make a sale,
he wouldn’t do it.

Talbott explained his dad’s view of
ethics lives on through him. Talbott has
authored a number of books, including
Churchill on Courage.

“The quality of speakers we had at this
conference and the depth of the wisdom
they imparted to us was inspiring,” said
TVA Inspector General Richard Moore.
“Life lessons such as the ones presented
by these ethics pioneers stick with us
                                                            Inspector General Moore with Award winning poster
and remind us on a very human and
authentic level that doing the right                                                                                             t
thing is always the right thing to do.”                                                                                          v
                                                                                                                                 a

                                                                                                                                 13
                                                                                                                                 o
                                                                                                                                 i
                                                                          Semiannual Report | October 1, 2009 – March 31, 2010
                                                                                                                                 g
                                             Executive Overview




Semiannual Report | October 1, 2009 – March 31, 2010
With more than 12,000 employees, changing the organizational
culture is a sizeable feat for TVA; however, high-level structural
                                                                                        In this report on TVA’s operational
changes and the establishment of a program called the
                                                                                        performance, in addition to the legacy
Organizational Effectiveness Initiative, OEI, are indicative of a                       cultural issue, we found TVA performed
serious commitment to transformation. These changes were                                exceptionally well in terms of system
launched to address the organizational cultural issues identified                       reliability, delivering electric service
by the OIG in its reports on the ash spill at Kingston and at other                     with 99.999 percent reliability. TVA
TVA locations. The feature article beginning on page 6 highlights                       also performed better than the
                                                                                        industry at large in all its key reliability
the significance of culture and details some of the steps TVA has
                                                                                        performance metrics. However, in
undertaken to address the issue.                                                        terms of system efficiency, we found
                                                                                        that higher than average forced outage
                       STATISTICAL HIGHLIGHTS                                           rates, especially for its fossil units,
                         October 1, 2009 ~ March 31, 2010                               have negatively impacted TVA’s system
             Audit Reports Issued                            26                         efficiency performance. We also found
                                                                                        that, based on the number of recordable
             Questioned Costs                                $979,959
                                                                                        injuries per 200,000 hours worked,
             Disallowed Costs                                $2,255,467                 TVA ranked in the first quartile of
             Funds Recovered                                 $2,998,971                 those utilities against which TVA was
             Funds to be Put to Better Use                   $9,702,600                 measured.
             Funds Realized by TVA                           $480,450
             Investigations Opened                           168
             Investigations Closed                           198                        > Financial and
             Fines/Recoveries/Restitution                    $47,679                       Operational Audits
             Criminal Actions                                9                          During this semiannual period,
                                                                                        Financial & Operational Audits
             Administrative Actions (No. of Subjects)        7
                                                                                        completed 11 projects, including
             Inspections Completed                           3
                                                                                        three audits, one attestation
                                                                                        engagement, and seven other
During the period of October 1, 2009,        highest college degrees listed on          projects. The audits and attestation
to March 31, 2010, our inspection,           resumes submitted for employment,          engagement included work in
audit, and investigation teams acted to      and TVA’s criteria for the adjustment of   the following areas: (1) TVA’s
promote greater economy, effectiveness,      tributary water levels in TVA-managed      Hearing Conservation Program;
and efficiency at TVA while detecting        bodies of water.                           (2) risks related to TVA’s Pension
and preventing fraud, waste, and                                                        system; and (3) agreed-upon
abuse. In total, we identified more          The most significant of these reports      procedures for TVA’s Winning
than $10 million in recoveries,              is the review of TVA’s operational         Performance measures. We also
fines/penalties, potential savings,          performance. It is the third in our        provided oversight of TVA’s external
questioned costs, or funds which             series of reviews that benchmark TVA’s     auditors conducting the audit of
could be put to better use, as outlined      performance in key areas. As noted         TVA’s financial statements.
in the chart above.                          in our prior reports on the ash spill at
                                             Kingston, over TVA’s 75-year history       The review of TVA’s Hearing
                                             some cultural traits have developed        Conservation Program has not only
                                             which serve to undermine TVA’s             significant safety and economic                t
> Inspections                                                                          findings, but also again shows the
                                             mission and safety record. Cultural                                                       v
The Inspections team completed
                                             issues have also been identified as        impact of culture on achieving
three significant reviews during this
                                                                                        organization-wide goals. In TVA’s
                                                                                                                                       a
                                             contributing to findings in other OIG
period that focus on TVA’s operational
                                             reviews.                                   Hearing Conservation Program
performance, the legitimacy of the                                                                                                     15
                                                                                                                                       o
                                                                                                                                       i
                                                                            Semiannual Report | October 1, 2009 – March 31, 2010
                                                                                                                                       g
     we found, among other things, the            TVA’s FY 2009 efforts to comply with        continued to focus on major fraud
     existence of an employee culture which       the Sarbanes-Oxley Act of 2002 (SOX).       cases, and we participated on task
     encourages some TVA employees to file                                                    forces with other federal, state, and
     nonwork related hearing loss claims.         In our annual review of TVA’s               local agencies. We conducted numerous
     We also found that TVA’s Hearing             information security program, we found      administrative inquiries resulting
     Conservation Program, as written,            TVA had generally improved in the area      in program improvements for TVA
     complies with the significant provisions     of establishing its inventory of systems    and disciplinary actions against TVA
     of Occupational Safety and Health            requiring certification and accreditation   employees. The findings of these cases
     Administration’s (OSHA) “Occupational        and general security awareness              and involvements can be found in the
     Noise Exposure” regulations, but that        training for network users. However,        Investigations section, starting on page
     certain TVA sites did not follow or          we identified several areas during this     34 of this report.
     ensure all program requirements were         year’s audit in which (1) performance
     being met consistently.                      had declined, or (2) TVA had not            Also during this semiannual period, the
                                                  completed actions from the prior            OIG’s Data Mining program conducted
                                                  year’s audits. We reviewed five TVA         a more detailed review of previous
                                                  business units as to their controls over    findings in regard to TVA credit card
                                                  backup and recovery of applications,        transactions. Two separate reviews
     > Distributor AuditS
                                                  data, network device configurations,        were conducted to identify potential
     During this semiannual period, the
                                                  and control system configurations. We       fraudulent or unauthorized charges.
     OIG completed four reviews of TVA
                                                  found TVA had significant weaknesses        One review included over $322,000 in
     distributors. We found distributors
                                                  in the controls over backup and             transactions made from March 2006 to
     were not complying with all contract
                                                  recovery of network device and control      April 2009 at a major electronic retailer.
     requirements and, as a result, TVA
                                                  system configurations.                      Although all of the transactions were
     management is planning to change the
                                                                                              approved by management, many
     requirements for customer contracts as
                                                                                              appeared to violate TVA’s policy on
     part of the rate change process with the
                                                                                              hospitality. TVA management agreed
     distributors. We noted the distributors
     had more than enough cash on hand to         > ContracT Audits                          with the majority of our findings
                                                  During this semiannual period, Contract     and implemented recommendations
     fund planned capital expenditures and
                                                  Audits completed (1) five preaward          to strengthen controls and increase
     provide a cash reserve. Additionally,
                                                  audits of cost proposals submitted by       monitoring in this area.
     we identified several areas where
     internal controls could be strengthened      prospective contractors that identified
     to improve completeness, accuracy,           $9.7 million of potential savings
     and validity of the billing data. Finally,   opportunities for TVA to negotiate, and
     we also found several opportunities          (2) four compliance audits of contracts
     for TVA to enhance oversight of the          with expenditures totaling $184 million
     distributors and an opportunity for          and identified potential overbillings
     TVA to correct a billing error.              of $806,000. We also reviewed TVA’s
                                                  decision to construct a gas plant in
                                                  northeast Tennessee.

     > IT Audits
     During this semiannual period,
     we completed six audits in the IT            > Investigations
     environment pertaining to: (1) the           During this semiannual reporting
t    OIG’s annual review of the Federal           period, Investigations continued to
     Information Security Management Act
v                                                 work closely with Audits on contract-
     (FISMA), and (2) the effectiveness of
a                                                 related issues and with Inspections
     TVA’s backup and recovery process. We        on ongoing issues from the Kingston
     also completed 13 audits in support of
16                                                ash spill. Additionally, Investigations

o
i
     Semiannual Report | October 1, 2009 – March 31, 2010
g
OIG strategic plan


                Mission                                                   Core Values
                Promote excellence in TVA’s operations through the        • Independence
                conduct of investigations, audits, inspections, and       • Integrity
                advisory services designed to promote economy,            • Innovation
                efficiency, and effectiveness and prevent and detect      • Initiative
                fraud, waste, and abuse                                   • Quality
                                                                          • Results
                                                                          • Leadership
                Vision                                                    • Teamwork
                To be a highly effective organization that promotes       • Communication
                positive change by identifying opportunities for          • Respect for Individual
                improvements in the performance and efficiency of
                TVA’s programs and operations




 > Goals & Objectives

                                              PERFORMANCE
                                 • Perform timely reviews that address
                                    stakeholder concerns and areas of highest risk
                                 • Focus efforts on areas of highest impact and risk
                                 • Ensure processes are efficient and effective
                                 • Stay abreast of emerging issues and industry trends
                                 • Stay abreast of stakeholder concerns
                                 • Produce work that is timely, relevant, and of
                                    high quality

             WORKFORCE
  • Cultivate and retain a highly skilled, productive,                         STAKEHOLDER
     and fully engaged workforce                                  • Improve stakeholder awareness of OIG
 • Hire and retain a well qualified workforce                     • Ensure stakeholders are kept informed
 • Maintain competitive pay and award programs that              • Ensure stakeholders have an opportunity to
    allow for rewarding team and individual contributors             provide input in the annual audit planning
  • Develop leadership, team and technical skills of each           process and each individual review, as
     employee                                                        appropriate
     • Ensure accountability in individual performance                                                                       t
            • Promote effective communications                                                                               v
                    within OIG                                                                                               a

                                                                                                                             17
                                                                                                                             o
                                                                                                                             i
                                                                      Semiannual Report | October 1, 2009 – March 31, 2010
                                                                                                                             g
                                     Office of the Inspector General




Semiannual Report | October 1, 2009 – March 31, 2010
The OIG’s most important
resources are its people. Our
team is made up of experienced
auditors, investigators, and
administrative staff. The OIG is
an independent office within TVA
and is headquartered opposite
TVA in TVA’s East Tower,
overlooking downtown Knoxville.

Inspector General Richard Moore
believes that in order to effectively
provide oversight to TVA, we must
be strategic in our placement of OIG
employees. As such, Inspector General
Moore has worked to ensure that
our office has a presence at or near
all major TVA offices throughout the                                                                             OIG Staff

Tennessee Valley.

The OIG has a satellite office in the         Assistant IGs to address the day-to-day    annual work plan. The group’s plan
Edney Building in Chattanooga,                operations of the OIG and to develop       considers TVA’s strategic plans,
Tennessee, where the Inspections unit         policies and procedures designed to        major management challenges, their
and several investigators are located.        drive and enhance productivity in          enterprise risk management process,
There are also staffed field offices at the   achieving office goals. Responsibilities   and other input from TVA management.
Watts Bar Nuclear Plant in Tennessee;         include operations for personnel           The planning model also evaluates
and also in Nashville, Tennessee;             administration, budget and financial       each potential engagement from the
Huntsville, Alabama; and Mayfield,            management, purchasing and contract        standpoint of materiality (i.e., costs
Kentucky.                                     services, facilities, conferences, and     or value of assets), potential impact,
                                              government relations.                      sensitivity (including public and/or
As of March 31, 2010, the OIG had
                                                                                         congressional interest), and likelihood
a total staff of 105. The Audit and
                                                                                         it will result in recommendations for
Inspections units are composed of
                                              >A
                                                UDITS AND                               cost savings or process improvements.
66 individuals, the Investigations
                                               INSPECTIONS                               The result of the OIG audit and
unit includes 29 individuals, and the
                                              The Audits and Inspections group           inspections planning process is a focus
Administrative unit is comprised of
                                              performs a wide variety of engagements     on those issues of highest impact and
10 individuals.
                                              designed to promote positive               risk of fraud, waste, or abuse. This
The number of personnel located               change and provide assurance to            focus extends to the field of Information
at each staffed office is as follows:         TVA stakeholders. Based upon the           Technology and risk assessment
Knoxville-78, Watts Bar Nuclear               results of these engagements, the          related to a potential malicious or other
Plant-2, Chattanooga-18, Nashville-2,         Audits and Inspections group makes         intrusion of TVA’s IT infrastructure.
Huntsville-4, and Mayfield, Kentucky-1.       recommendations to enhance the
                                                                                         The Audits group, based in Knoxville,
                                              effectiveness and efficiency of TVA’s
                                                                                         conducts and/or supervises
                                              programs and operations.
                                                                                         comprehensive financial and
                                                                                                                                     t
> ADMINISTRATION                                                                        performance audits of TVA programs          v
The administrative section works              The group uses an impact- and risk-
                                              based approach to developing an            and operations.                             a
closely with the IG, Deputy IG, and
                                                                                                                                     19
                                                                                                                                     o
                                                                                                                                     i
                                                                             Semiannual Report | October 1, 2009 – March 31, 2010
                                                                                                                                     g
     It consists of four departments—               terms of the power contracts between        In accordance with the Quality Stan-
     Financial/Operational Audits, Contract         TVA and its distributors.                   dards for Inspections, the objectives of
     Audits, Distributor Audits, and                                                            the Inspections group include provid-
     Information Technology Audits.               •	IT Audits has lead responsibility for      ing a source of factual and analytical
                                                     audits relating to the security of TVA’s   information, monitoring compliance,
     •	Financial/Operational Audits has             IT infrastructure, application controls,   measuring performance, assessing the
        lead responsibility for: (1) oversight       and general controls associated            efficiency and effectiveness of opera-
        of TVA’s financial statement audit           with TVA systems. This group also          tions, and/or conducting inquiries into
        and related services performed by            performs operational reviews of the        allegations of fraud, waste, abuse, and
        TVA’s external auditor; (2) reviews          effectiveness of IT-related functions.     mismanagement.
        of TVA’s internal controls related
        to financial reporting, operational       The Inspections group, based in               Audit and inspection findings vary
        efficiency, and compliance with laws      Chattanooga, serves a unique function.        depending on the objectives of the
        and regulations; and (3) operational      We refer to our Inspections group as          project. Issues can be generalized
        reviews to assess the results and         the “Light Calvary.” This group was           into specific categories depending on
        economy and efficiency of TVA             created when Inspector General Moore          the type of engagement performed.
        programs.                                 recognized the need for an auditing           The graphic below shows some
                                                  team that could provide a quick, yet          representative examples of issues
     •	Contract Audits has lead                  thorough review of TVA functions.             commonly reported.
        responsibility for contract compliance    The methodology utilized by this
        and preaward audits. In addition,         group allows them to complete these
        this group performs reviews of TVA’s      reviews quicker than traditional audits,
                                                                                                > INVESTIGATIONS
        contracting processes and provides        by limiting the scopes of the reviews.
                                                                                                The Investigations group is vigilant in
        claims assistance as well as litigation   However, the team can and does
                                                                                                its search for activity related to fraud,
        support.                                  provide standard audit reviews
                                                                                                waste, and abuse in TVA programs
                                                  when needed and seeks to ensure
     •	Distributor Audits has lead                                                             and operations. This highly skilled
                                                  that program objectives and
        responsibility for contract compliance                                                  team performs investigative activity in
                                                  operational functions are achieved
        reviews of TVA’s distributors. This                                                     accordance with the Quality Standards
                                                  effectively and efficiently.
        group assesses compliance with the                                                      for Investigations. The investigators




                              TYPES OF AUDIT AND INSPECTION ISSUES

             Information                                 Operational Audits                                Contract Audits
          Technology Audits                               • Operational Inefficiency                          • Inflated Proposals
             • Unauthorized Access                     • Not Achieving Intended Results                    • Contract Overpayments
              • Inadequate Controls                         • Inferior Performance                          • Inferior Performance
             • Lack of Data Integrity                         • Legal/Regulatory                                     • Fraud
                     • Fraud                                    Noncompliance
                                                                    • Fraud


t
v           Financial Audits                             Distributor Audits                                    Inspections
a        • Internal Control Deficiencies                   • Contract Noncompliance                     • Internal Control Deficiencies
            • Material Misstatements                        • Misstatement of Power                        • Operational Inefficiency
20           • Legal Noncompliance                                Sales to TVA                              • Policy Noncompliance
                     • Fraud                                         • Fraud                                         • Fraud
o
i
     Semiannual Report | October 1, 2009 – March 31, 2010
g
maintain liaison with federal and state     Theft of Government Property and             Illegal hacking into TVA Computer
prosecutors and file a report with the      Services – Theft of TVA property and         Systems – Accessing a computer
Department of Justice whenever the          “schemes to defraud…designed to              without authorization or exceeding
OIG has reason to believe there has         deprive individuals, the people, or the      authorized access.
been a violation of federal criminal        government of intangible rights, such as
law. Our investigators partner with         the right to have public officials perform   Workers’ Compensation Fraud –
other investigative agencies and            their duties honestly.”                      Includes employee fraud, medical fraud,
organizations on special projects and                                                    premium fraud, and employer fraud,
assignments, including interagency law      Environmental Crime – Any act which          most often a false claim of disability to
enforcement task forces on terrorism,       violates an environmental protection         receive benefits.
the environment, and health care. Our       statute.
                                                                                         Employee Misconduct – Generally
investigative workload includes the
                                            Health Care Fraud – The intentional          includes misuse of TVA furnished
following major categories:
                                            misrepresentation of health care             equipment, travel voucher fraud, and
Contract Fraud – Defrauding TVA             services, expenses, billings, needs, or      a multitude of miscellaneous matters.
through its procurement of goods            coverage that results in unauthorized
and services.                               payments or other benefits.




OFFICE RESPONSIBILITIES AND AUTHORITY
Created by the TVA Board of Directors in 1985, the TVA OIG became statutory under the Inspector
General Act Amendments of 1988 (IG Act). The authority to appoint the TVA Inspector General
was transferred to the President in November 2000 by Public Law No. 106-422.


> OIG RESPONSIBILITIES                                                                   > OIG AUTHORITY
• Promote economy and efficiency while preventing and detecting fraud, waste,           • Conduct any audit, inspection, or
   and abuse.                                                                               investigation the IG deems necessary
                                                                                            or desirable.
• Conduct and supervise audits, inspections, and investigations relating to TVA
   programs and operations.                                                              • Access all TVA records or other
                                                                                            material.
• Keep the TVA Board and Congress fully and currently informed concerning
   fraud and other serious problems, abuses, and deficiencies relating to TVA            • Issue subpoenas and administer oaths.
   programs and operations.
                                                                                         • Receive complaints and grant
• Recommend corrective actions concerning problems, abuses, and deficiencies,              confidentiality.
   and report on the progress made in implementing such actions.
                                                                                         • Have direct and prompt access to the
• Assure work performed by nonfederal auditors complies with Government                    TVA Board.
   Auditing Standards.
                                                                                         • Hire employees and contract for
• Issue semiannual reports to TVA Board and the Congress.                                  services as necessary.                   t
                                                                                                                                     v
                                                                                                                                     a

                                                                                                                                     21
                                                                                                                                     o
                                                                                                                                     i
                                                                            Semiannual Report | October 1, 2009 – March 31, 2010
                                                                                                                                     g
                              Summary of Representative Inspections




Semiannual Report | October 1, 2009 – March 31, 2010
Summary of
Representative
Inspections
During this period, Inspections
completed three reviews.
Specifically, Inspections
reviewed TVA’s operational
performance, the legitimacy
of the highest college degrees
listed on the resumes submitted
for employment, and TVA’s
criteria for the adjustment of
tributary water levels in TVA-
managed bodies of water.
                                                                                                       inspections TEAM
>R
  eview of TVA’s
 Operational                                other OIG reviews. Over TVA’s 75-year        reliable and cost competitive source
 Performance Results                        history, cultural traits have developed      of electric power to its customers.
This review was the third in a series       that if not identified and addressed         TVA has performed exceptionally
of reviews that benchmark TVA’s             can undermine the best policies              well in terms of system reliability,
performance in key areas and answers        and procedures. The importance of            delivering electric service with
the question, “How is TVA doing in          recognizing cultural limitations cannot      99.999 percent reliability. TVA also
regard to operational performance?”         be overemphasized.                           performed better than the industry
In conducting this review, we:                                                           at large in all its key reliability
(1) assessed key performance                For TVA’s continued success, we              performance metrics. In addition,
measures and their alignment with           believe the culture must be accurately       TVA has maintained an adequate
key strategic objectives; (2) evaluated     assessed, compliance with new policies       capacity reserve margin, which has
TVA’s performance relative to key           and procedures must be faithfully            contributed to this strong reliability
performance indicators by using target      measured with appropriate metrics,           performance.
metrics and available benchmark             and employees must be educated to
information; and (3) identified             think differently about TVA business,      • Efficiency: Additional focus is
key management challenges                   operational, and safety practices. As a       warranted in the area of system
confronting TVA.                            result of reports from both McKenna           efficiency, which is a measure of the
                                            Long & Aldridge and the OIG, TVA has          effectiveness of TVA’s expenditures
Our report found TVA’s performance          recently begun implementing actions           on the operations and maintenance
is positive with respect to system          to assess the culture and drive change        of its generation fleet. Specifically,
reliability and safety; however, both       management.                                   higher than average loss of electrical
system efficiency and management                                                          generation due to unplanned
culture could be improved. As noted         This benchmarking report on TVA’s             equipment or transmission failures
in our recent report on conditions          operational performance assesses the          or problems, especially for its fossil
surrounding the ash slide at Kingston,      performance of TVA’s power system in          units, have negatively impacted
attitudes and conditions at TVA’s fossil    the ensuing three key areas and can be        TVA’s system efficiency performance.     t
plant that emanate from a legacy            summarized as follows:                        In addition, while TVA’s delivered       v
culture impacted the way TVA handled                                                      cost of power ranked in the second       a
                                            • Reliability: One of TVA’s primary
coal ash. Cultural issues have also been                                                  quartile of a selected peer group,
                                               responsibilities is to serve as a
identified as contributing to findings in                                                 its average nonfuel operations and       23
                                                                                                                                   o
                                                                                                                                   i
                                                                            Semiannual Report | October 1, 2009 – March 31, 2010
                                                                                                                                   g
       maintenance costs ranked only in the       found to have counterfeit degrees          OIG representative. For the three
       third quartile. High operations and        in engineering and accounting. We          employees with only a copy of their
       maintenance costs coupled with low         conducted our review of this potential     degree on file, the copies and/or the
       plant availability combined to depress     issue to validate the highest degrees      employee files should have included an
       TVA’s efficiency metrics. Two things       listed on employee resumes.                annotation by the Human Resources
       clearly impacting TVA’s efficiency                                                    (HR) representative performing the
       performance included: (1) an aging         Specifically, we conducted a review of     verification that an original educational
       fossil generation fleet and (2) reduced    Bechtel and subcontractor employees        degree was provided by the employee
       availability of hydroelectric power.       assigned to the WBN U2 Project. Our        at the time of hire. Bechtel does not
                                                  objective was to validate, for selected    accept copies of educational degrees
     • Safety: The recent death of a             personnel, the highest educational         from an employee as adequate
        contractor employee involved in the       degree listed on the resumes submitted     verification.
        Kingston Fossil Plant ash spill cleanup   for employment. Our review found no
        effort emphasizes that safety must be     instances where an employee was hired
        the first priority in everything TVA      based on a fraudulent degree. However,     > Review of TVA’s
        does. Notwithstanding the above           neither Bechtel nor the OIG was               Reservoir Operations
        event, TVA ranked in the first quartile   successful in verifying one employee’s        Program
        on safety, based on the number of         degree. In addition, three employees       TVA is responsible for managing a range
        recordable injuries per 200,000 hours     in our sample had only a copy of their     of programs in the Tennessee River
        worked, according to data provided        degree on file as their verification. We   Valley for the use, conservation, and
        by the Occupational Safety and Health     recommended the Vice President, WBN        development of the water resources
        Administration and comparable data        U2, in conjunction with the Bechtel        related to the Tennessee River. In
        provided by the 2007 Edison Electric      Project Director, ensure that employees’   carrying out this mission, TVA operates
        Institute Benchmark Data.                 educational degrees are verified if the    a system of dams and reservoirs with
                                                  degree is required for the position for    associated facilities--its water control
     Finally, TVA faces many significant          which they are hired. Furthermore,         system. As directed by the TVA Act,
     management challenges in attaining           a copy of a diploma supplied by an         TVA uses this system to manage the
     and maintaining operational excellence.      employee should not be considered          water resources of the Tennessee
     Our report discusses the areas of:           adequate verification.                     River for the purposes of navigation,
     (1) an aging generation fleet and                                                       flood control, power production and,
     transmission system; (2) an aging            TVA management agreed with our             consistent with those purposes, for a
     work force; (3) generation mix; and          findings and recommendations.              wide range of other public benefits.
     (4) management culture.                      According to Bechtel, they have            Based upon questions posed to OIG
                                                  verified the degree for the individual     personnel regarding TVA’s criteria for
                                                  employee whose file was missing this       the adjustment of tributary water
     >R
       eview of
      Educational Degrees                         documentation. Bechtel provided            levels, we initiated a review of TVA’s
      for Contractors                             the verification directly to an on-site    Reservoir Operations.
      Assigned to the WBN
      U2 Project
     An article published July 30, 2008,
     by the Spokesman-Review (i.e.,
     the Spokesman-Review is the daily
     newspaper in Spokane, Washington)
     listed almost 10,000 people identified
     by the Department of Justice who
t    had purchased phony and counterfeit
v    high school and college degrees. One
     of the people included in the list, an
a
     employee of a company which operates
     two nuclear plants in Minnesota, was
24
                                                     Chickamauga Reservoir is on the Tennessee River just north of Chattanooga.
o                                                 The reservoir stretches 59 miles upriver from Chickamauga Dam to Watts Bar Dam.

i
     Semiannual Report | October 1, 2009 – March 31, 2010
g
Our objectives were to determine:         similar manner to TVA. We performed         Commitments, which is measured in
(1) whether criteria exist to balance     testing based upon the approved             pulse commitment violations (a pulse
the competing objectives of managing      TVA guidelines and found no issues.         represents a release of an agreed-upon
water in TVA reservoirs; (2) how those    Specifically, we found that there were no   amount of water, and a violation is an
objectives compare to those of the        issues related to the following summer      instance where TVA does not provide
U.S. Army Corps of Engineers; and         criteria: (1) Recreational Releases         the pulse on time); and (2) Flood
(3) whether TVA was following its         (water releases to enhance recreational     Storage Availability (flood storage is
criteria. This report encompasses         opportunities); (2) Chickamauga             defined as the volume, or capacity,
TVA-managed lakes, tributaries, and       Flow (the required flow through             in a reservoir that is reserved for the
overall Reservoir Operations.             Chickamauga Dam); and (3) Tributary         storage of flood water, and anytime a
                                          Balancing (ensuring that no individual      tributary’s headwater elevation exceeds
Our review of TVA’s Reservoir             tributary is disproportionately affected    the flood guide, it is in violation).
Operations revealed TVA has               when meeting river system minimum
Board-approved guidelines that were       flow goals).                                Since we had no recommendations,
developed with public input in 2004.                                                  this report was issued for informational
We noted in discussion with two offices   Lastly, we found there were no issues       purposes only.
of the U.S. Army Corps of Engineers       related to the following nonsummer
that they balance similar objectives      criteria: (1) Minimum Flow
and manage their reservoirs in a




             hiwassee: FACTS & FIGURES
 • Construction of Hiwassee Dam began in 1936 and was
    completed in 1940.
 • The dam is 307 feet high and stretches 1,376 feet across the
    Hiwassee River.
 • In the year with normal rainfall, the was level in Hiwassee
    Reservoir varies about 43 feet from summer to winter to
    provide seasonal flood storage.
                                                                                           Hiwassee Reservoir is located on the
 • The reservoir has a flood-storage capacity of 205,600 acre-feet.                  Hiwassee River in western North Carolina,
                                                                                              stretching 22 miles northwest to
 • The hydroelectric power plant at Hiwassee Dam consists of two                         southeast. It is immediately upstream
                                                                                                      from Apalachia Reservoir.
    generating units.



                                     Chickamauga: FACTS & FIGURES
    • Construction of Chickamauga Dam began in 1936               • Chickamauga and other reservoirs on the
       and was completed in 1940.                                     Tennessee and its tributaries have prevented
                                                                      nearly $5 billion in flood damage in the city of
    • The dam is 129 feet high and stretches 5,800 feet              Chattanooga alone.
       across the Tennessee River.
                                                                   • The 60x360 foot lock at Chickamauga lifts and
    • Chickamauga Reservoir has 784 miles of shoreline               lowers river craft about 50 feet between Nickajack
       and about 36,240 acres of water surface. It has a              and Chickamauga reservoirs.
       flood-storage capacity of 345,300 acre-feet.
                                                                   • The hydroelectric power plant at Chickamauga                t
    • In order to maintain the water depth required for              consists of four generating units.
                                                                                                                                  v
       navigation, the minimum winter elevation for
       Chickamauga Reservoir is 675 feet. The typical summer                                                                      a
       operating range is between 681.5 and 682.5 feet.
                                                                                                                                  25
                                                                                                                                  o
                                                                                                                                  i
                                                                         Semiannual Report | October 1, 2009 – March 31, 2010
                                                                                                                                  g
                                  Summary of Representative Audits




Semiannual Report | October 1, 2009 – March 31, 2010
Summary of
Representative
Audits
During this reporting period,
we completed 26 audits which
identified more than $10 million
in questioned costs and funds
which could be put to better use.
We also identified numerous
opportunities for TVA to improve
program operations. Our audits
included: (1) financial and
operational audits; (2) preaward
and postaward contract audits;
(3) reviews of TVA distributors;                                                 financial and operational audits TEAM
and (4) IT reviews.

Financial and Operational Audits
                                           assess compliance with key power           Financial and
                                           contract provisions. Through these
reviewed TVA’s Hearing Conservation        reviews, this group identified contract
                                                                                      Operational Audits
Program and TVA’s Pension system.          compliance issues, distributor internal    > TVA’s Hearing
It also applied agreed-upon procedures     control issues as well as opportunities       Conservation
this period to TVA’s Winning               for TVA to improve oversight of the           Program
Performance measures in addition to        distributors.                              Hearing loss claims at TVA have
monitoring TVA’s financial statements
                                                                                      increased from 65 claims in 1997
audit performed by external auditors.      Information technology is used in every
                                                                                      totaling $1.1 million to 689 claims
In total, the group completed              facet of TVA’s operations. The IT Audits
                                                                                      in 2008 totaling $6.5 million. Thus,
11 reviews of various financial            group assessed the effectiveness of
                                                                                      there are significant safety and
and operational activities by TVA.         TVA’s backup and recovery process.
                                                                                      economic reasons to periodically
                                           This group also performed its annual
Contract Audits succeeded in                                                          review this program.
                                           review of TVA’s information security
identifying more than $9.7 million         program. This work was in addition         TVA’s Hearing Conservation Program
of potential savings opportunities         to tests of general computer and           (Program) was established to “prevent
for TVA to negotiate. Those savings        application controls and a design          employee hearing loss from exposure
opportunities were primarily related       review that was completed in support       to high noise levels,” by “reduc[ing]
to overstated cost recovery rates and      of TVA’s compliance with SOX. In           noise levels where feasible and…
misclassified labor categories. Contract   total, the IT Audits group completed       provid[ing] the means for protection
Audits also completed four compliance      six audits in the IT environment and       from noise in areas where the levels
audits of contracts with expenditures      13 audits in support of TVA’s FY 2009      remain high.” In general, the Program
totaling $184 million and identified       efforts to comply with SOX.                has four major components: (1) the
potential overbillings of $806,000.
                                                                                      development and implementation of a
Additionally, Contract Audits reviewed     A more detailed description for
                                                                                      noise monitoring (sound level survey)      t
TVA’s decision to construct a gas plant    the engagements completed this
                                                                                      program; (2) the provision for adequate    v
in Northeast Tennessee.                    semiannual period by the four
                                                                                      hearing protection devices and its         a
                                           departments follows.
Distributor Audits completed four                                                     proper use; (3) the development and
audits of TVA power distributors to                                                   implementation of an audiometric           27
                                                                                                                                 o
                                                                                                                                 i
                                                                          Semiannual Report | October 1, 2009 – March 31, 2010
                                                                                                                                 g
     testing program; and (4) regular              the OSHA 300 log, i.e., a work-related    of TVARS’ actuary in determining
     training and education.                       hearing loss above a threshold            TVA’s pension liability; (4) funding and
                                                   specified in the Hearing Conservation     benefits decisions and other factors
     All employees and former employees            Program.                                  impacting the financial status of TVARS;
     who sustain injuries, including hearing                                                 and (5) concerns raised during the
     loss, while on duty are entitled to the     We also determined: (1) TVA’s current       audit by TVARS members.
     benefits of the Federal Employees’          organizational structure does not
     Compensation Act (FECA). FECA               allow for enforcement of the Program        Our review determined TVARS’:
     provides for the Office of Workers’         by Corporate Health and Safety; and         (1) controls were suitably designed and
     Compensation Programs of the U.S.           (2) confirmed the existence of an           operating with sufficient effectiveness
     Department of Labor to make all claim       employee culture which promotes the         to provide reasonable assurance
     decisions and payment of benefits.          filing of hearing loss claims by some       that the control objectives specified
     Approximately $33.6 million were            TVA employees who believe they are          were achieved; (2) external auditors
     paid to TVA claimants (representing         entitled to a hearing loss award at the     performed the work according to their
     3,734 claims) for hearing losses            end of their TVA career, without regard     audit program, and we found nothing
     during the five-year period ending          to whether the employee believes such       to question their work or conclusions;
     September 30, 2008. During this             loss was work-related, nonwork-related,     and (3) method used to calculate
     same five-year period, there were           or due to the natural aging process. The    the pension liability and funding
     1,316 new hearing loss claims filed.        OIG reported this culture in a separate     contribution was acceptable.
                                                 report issued in March 2009.
     As part of our FY 2009 audit plan,                                                      We also determined that a
     we reviewed the TVA’s Hearing                                                           combination of factors resulted in
     Conservation Program (Program)              >R
                                                   eview of TVA’s                           TVARS experiencing a significant
     to determine whether: (1) it complies        Pension Risk                               shortfall between assets and projected
     with OSHA‘s regulations, and (2) TVA        Established in 1939, Tennessee Valley       obligations and being funded at a lower
     organizations are in compliance with        Authority Retirement System (TVARS)         level relative to obligations than most
     Program guidelines. We also reviewed        is a defined benefit plan (Plan) covering   other comparison utilities. Four factors
     a prior OIG report to determine             most full-time and part-time annual         contributed to this shortfall: (1) not
     whether or not its recommendations          employees. TVARS is a separate legal        making contributions to TVARS in six
     have been implemented.                      entity from TVA and is administered         years; (2) adding significant benefits to
                                                 by an independent, seven-member             the plan; (3) making TVARS rules that
     In summary, we found:                       Board of Directors. TVA is to contribute    had the effect of enticing employees
                                                 to TVARS the amounts necessary on           to retire; and (4) the market crash of
     • TVA’s Hearing Conservation               an actuarial basis to provide TVARS
        Program, as written, complies with                                                   2008 and early 2009. These events
                                                 with assets sufficient to meet TVA-         constituted a near “perfect storm”
        the significant provisions of 29 CFR     financed benefit obligations to be paid
        Part 1910.95, “Occupational Noise                                                    that created a financially unhealthy
                                                 to members. A member’s retirement           system with a funding shortfall of
        Exposure,” issued by OSHA.               benefit consists of a pension benefit       approximately $3 billion and annual
     • Certain TVA sites did not: (1) perform   provided by TVA’s contributions and         retirement benefit payments of about
        and/or use sound level surveys in        earnings on Plan assets.                    $575 million as of December 31, 2008.
        accordance with the Program;             As part of our annual audit plan, our
        (2) adhere to Program hearing                                                        During our review, TVA and TVARS
                                                 office reviewed the risks associated        were in negotiations regarding the
        protection requirements and/or           with the TVA’s pension plan and how
        discipline employees when hearing                                                    fiscal year 2010 contribution to TVARS
                                                 those risks are mitigated. Our audit        and potential benefit reductions.
        protection was not worn                  covered areas, such as: (1) controls
        in designated areas; (3) ensure                                                      Our office was contacted by several
t                                                designed to mitigate pension risk;          TVARS members expressing concerns
        Program individuals’ annual              (2) the TVARS financial statement
v       audiogram and training requirements                                                  on the impact the reductions might
                                                 audit performed by their external           have. Most of these concerns were
a       were met; and (4) record loggable        auditor as it relates to the existence      related to perception issues, such as:
        Standard Threshold Shifts (STS) on       and valuation of assets; (3) the work
28                                                                                           (1) the fairness of proposing cuts to

o
i
     Semiannual Report | October 1, 2009 – March 31, 2010
g
TVARS’ benefits without cuts to the           on January 23, 2009. The CEO              tract called for the review of TVA’s FY
Supplemental Executive Retirement             subsequently approved the revised         2009 interim financial information filed
Plan (SERP) or the Federal Employees          FY 2009 Payout Business Rules,            on Form 10-Q with the Securities and
Retirement System (FERS); (2)                 Payout Report, and Strategic              Exchange Commission (SEC). The con-
past benefit decisions encouraging            Business Unit and Business Unit           tract required the work be performed
employees to retire early, which              (BU) scorecards on March 6, 2009.         in accordance with generally accepted
increased the benefit payments by             We noted these revised scorecards         government auditing standards. Our
TVARS, and then hiring some of those          included the removal of 43 metrics        monitoring of this work disclosed no
retirees back under contract; and (3)         from the January 2009 approved            instances where Ernst & Young did not
lack of independent legal counsel to          scorecards and the addition of            comply, in all material respects, with
assist in determining whether certain         14 metrics not previously approved        generally accepted government auditing
benefits are vested.                          for the respective scorecard.             standards.

                                            • Actual year-to-date inputs for all the
>A
  greed-Upon                                  metrics agreed with the respective
 Procedures Applied                            supporting documentation with one
 to 2009 Winning                               exception which did not affect the
                                                                                        Contract Audits
 Performance                                   respective WP payout.
 Payouts                                                                                > TVA’s Decision to
                                                                                           Construct a Gas
TVA’s Winning Performance (WP)              • The payout percentages were
                                                                                           Plant in Northeast
Incentive Plan is a performance                mathematically accurate. Subsequent
                                                                                           Tennessee
management program designed to                 changes to actual data were
                                                                                        We reviewed TVA’s decision to
promote teamwork, focus on continued           submitted through November 5,
                                                                                        construct a gas plant in northeast
high performance, and motivate and             2009. We recalculated the payout
                                                                                        Tennessee to determine if TVA’s analysis
reward employees for achieving                 percentages based on the revised data
                                                                                        supporting its decision was reasonable.
strategic objectives and critical success      without exception. We noted one of
                                                                                        TVA’s decision was initiated by a
factors. The WP program is based               the actual year-to-date inputs that
                                                                                        court-ordered accelerated schedule to
on the principle that operational              appeared on several scorecards was
                                                                                        install emission control equipment at
improvements, reduced costs, and               not rounded using the same rounding
                                                                                        John Sevier Fossil Plant which would
improved revenues can be obtained              convention as the respective goal.
                                                                                        require TVA to shut down units at the
by applying management focus and               However, this discrepancy did not
                                                                                        plant for about 20 months during the
offering monetary incentives. We               affect the WP payout. We also noted
                                                                                        construction. Although TVA evaluated
performed agreed-upon procedures,              the changes to one goal which were
                                                                                        various alternatives, TVA’s need to
which were requested solely to assist          approved subsequent to fiscal year-
                                                                                        preserve the reliability of the power
management in determining the validity         end on October 29, 2009, resulted in
                                                                                        system was the most significant factor
of the Winning Performance payout              a payout percentage increase for the
                                                                                        influencing its decision. In summary,
awards for the FY ended September 30,          BU of 6.25 percent and for the TVA
                                                                                        we determined TVA’s analyses appeared
2009.                                          BU Average of 0.21 percent.
                                                                                        reasonable to make the decision to
In summary, we found:                                                                   construct the gas plant in northeast
• The FY 2009 WP goals were properly       >F
                                              Y 2009 Financial                         Tennessee.
   approved. The TVA Board approved          Statement Audit
   the elimination of any payout based       Complied with
                                             Standards                                  > Preaward Contract
   on the TVA level scorecard metrics,                                                     Reviews
   which accounted for 30 percent of the    TVA contracted with the independent
                                                                                        To support TVA management in
   potential payout, during the February    public accounting firm of Ernst &
                                                                                        negotiating procurement actions, we
   12, 2009, Board meeting. During this     Young to audit TVA’s balance sheet as                                                   t
                                                                                        completed five preaward audits of cost
   same meeting, the Board requested        of September 30, 2009, and the related                                                  v
                                                                                        proposals submitted by companies
   the Chief Executive Officer (CEO) to     statements of income, changes in pro-
                                                                                        proposing to provide: (1) retiree staff     a
   revisit the remaining incentivized       prietary capital, and cash flows for the
                                                                                        augmentation services and
                                            year then ended. In addition, the con-
   metrics that the CEO approved                                                                                                    29
                                                                                                                                    o
                                                                                                                                    i
                                                                             Semiannual Report | October 1, 2009 – March 31, 2010
                                                                                                                                    g
     (2) engineering and design services
     for TVA power production and
     transmission operations. Our audits
     identified $9.7 million of potential
     savings opportunities for TVA to
     negotiate. The savings opportunities
     were primarily related to reducing
     proposed indirect cost recovery rates
     to better reflect the company’s actual
     cost experiences.


     >C
       ontract
      Compliance Reviews
     During this semiannual period, we
     completed four compliance audits of
     contracts with expenditures totaling
     $184 million and identified potential
     overbillings of $806,000. Highlights
     of our completed compliance audits                                                                contract audits TEAM
     follow.
                                                 agreed to consider revising the dental       engineering and technical support
     • We audited $25 million of costs          benefit plan to clearly define the           services in regard to the Detailed,
        billed to TVA by a contractor for the    member’s responsibility as it relates to     Scoping, Estimating, and Planning
        administration of TVA’s dental benefit   alternative procedures.                      study related to the potential
        plan. In summary, we found TVA                                                        completion of Unit 2 at Watts Bar
        had been overbilled $25,591              • We audited $147.7 million of costs       Nuclear Plant. In summary, we
        including: (1) $17,713 in duplicate        billed by a contractor for providing       found TVA had been overbilled
        claim payments; (2) $832 for claims        security services from January 2005        $184,487 including: (1) $175,094 of
        which exceeded plan limits; and            through July 2009 and found TVA had        home office labor costs that should
        (3) $7,046 for ineligible orthodontic      overpaid or been overbilled $286,881       have been recovered through the
        payments. In addition, due to the          as follows:                                contractor’s overhead rate and
        high amount ($132,000) of additional                                                  (2) $9,393 of miscellaneous
        coinsurance that was billable to          (1) $206,531 had been overpaid by
                                                       TVA due to an erroneous payment        unsupported or ineligible billings.
        members during our audit period,                                                      We also found TVA had paid the
        we determined the “Alternative                 for costs related to another
                                                       contract.                              contractor an additional $33,000
        Benefits” provision in TVA’s dental                                                   in fees due to conflicting contract
        benefit plan might be unclear as it       (2) $72,645 had been overbilled for        language regarding the application
        relates to the member’s responsibility         miscellaneous unsupported and          of fee to travel costs.
        when alternate procedures are used.            ineligible costs.
        We recommended TVA management:                                                      We recommended TVA management:
        (1) recover $25,591 in overbilled         (3) $7,705 had been overbilled due       (1) take action to recover $184,487 in
        costs from the contractor and                  to inaccurate provisional billing    overbilled costs from the contractor and
        (2) revise the dental benefit plan             adjustments for 2007 and 2008.       (2) determine the appropriateness of
        to more clearly define the member’s                                                 including travel costs in the contractor’s
        responsibility as it relates to          The contractor subsequently refunded       fee base. TVA management is reviewing
t       alternative procedures.                  $247,438 to TVA and TVA management         our findings to determine the amounts
v                                                plans to recover the remaining $39,443.    to be recovered from the contractor.
     The contractor and TVA management
a                                                • We audited $10.16 million of costs
     agreed TVA had been overbilled                                                         • We audited the prices billed to TVA
     $25,591. In addition, TVA management           billed by a contractor for providing       by a contractor for certain equipment
30
o
i
     Semiannual Report | October 1, 2009 – March 31, 2010
g
 related to dry cask storage systems                                               > Classification and
 for spent nuclear fuel at Sequoyah                                                   Metering
 and Browns Ferry Nuclear (BFN)                                                    We noted instances where:
 Plants, and found TVA had been                                                    (1) customers were not classified
 overbilled $276,000 because the                                                   properly; (2) similar customers were
 contractor overstated the price of                                                not classified the same; (3) customers
 a vertical crawler that had been                                                  were not metered for demand; and
 delivered to BFN. The overstatement                                               (4) customers were not metered,
 resulted because the contractor did                                               which resulted in estimates being used
 not follow the contract’s pricing                                                 for billing purposes. The impact of
 criteria which required the price of                                              these issues, where we had adequate
 the BFN crawler to be set at cost plus                                            information to estimate, was not
 10 percent. We recommended TVA                                                    material; however, there were some
 management recover the $276,000                                                   instances where we did not have
 overbilling from the contractor.                                                  enough information to estimate the
 TVA management is reviewing our                                                   impact. We also noted that the billing
 findings to determine the amounts to                                              system software used by a large group
 be recovered from the contractor.               distributor audits TEAM           of TVA distributors was not properly
                                                                                   moving one class of customers to the
                                          compliance with the key                  next rate classification because of a
                                          power contract provisions including:     coding error. Generally, the distributors
                                          (1) the proper reporting of power        are taking action to correct these issues.
                                          sales by customer class to facilitate
                                          proper revenue recognition and
                                          billing by TVA; (2) nondiscrimination    > Contract
                                          in providing electricity to members         Compliance
                                          of the same rate class; and (3) the      We found distributors were not
                                          use of power revenues. During this       complying with certain contract
                                          semiannual period, the OIG completed     requirements. Specifically, we noted:
                                          four reviews of TVA distributors.        (1) cost allocations for joint use of
                                          Following are issues noted in one        property and services agreed to with
                                          or more of these reviews.                TVA were not being applied, other




       dry cask storage system




Distributor Audits
TVA has 155 distributors—municipal
utility companies and cooperatives—
that resell TVA power to consumers.
Sales of power through these                                                                                                    t
distributors account for about                                                                                                  v
85 percent of TVA’s total revenue.                                                                                              a
The Distributor Audits group performs
audits of distributors to assess                                                                                                31
                                                                                                                                o
                                                                                                                                i
                                                                        Semiannual Report | October 1, 2009 – March 31, 2010
                                                                                                                                g
     allocation methods not approved by         the nonelectric department, funds were      and retail contracts may have resulted
     TVA were used, and/or allocations          transferred, but no document with loan      from poor communications between
     were applied improperly; (2) contracts     terms (interest rate, payment terms,        TVA and the distributor about program
     were not in place with all customers       payback period, electric department         requirements; and (2) TVA customer
     required by the power contract;            recourse, etc.) was executed. TVA and       service personnel had signed the retail
     (3) comingling of electric department      the distributor agreed to take action to    contract between the distributor and
     funds with those of other city             put agreements in place.                    the customer.
     departments was occurring; and
     (4) proper documentation was not                                                       While the signatures reflected approval
                                                >D
                                                  istributor Internal                      to only one section of the contract and
     being retained to allow verification        Control Issues
     of compliance with the TVA small                                                       not of the contract in its entirety, TVA
                                                At each of the distributors audited, we     took the position that the signatures
     manufacturing company credit.              identified areas where internal controls    could compromise its legal position
     As a result of contract compliance         could be strengthened to improve            in the event of litigation. If the rates
     issues noted in these and previous         completeness, accuracy and validity of      had been adjusted in accordance with
     audits, TVA management is planning to      the billing data. The following issues      the wholesale contract provisions,
     change the requirements for customer       were noted at one or more of the            TVA would have reduced the amount
     contracts as part of the rate change       distributors: (1) inaccurate or missing     credited to the distributor by
     process with the distributors. In          contract demand in billing systems;         approximately $174,000 during the
     addition, TVA management stated they       (2) distributors not using, and/or no       audit period. The position TVA took
     allowed distributors to keep electric      management review of, exception             on this issue in 2006 would likely
     and nonelectric funds in the same bank     reports showing changes to customer         compromise its ability to pursue
     account as long as the collections and     data in the billing system, zero usage      recovery of the $174,000 at this time.
     payables were accounted for separately     for monthly readings, and/or negative       According to distributor personnel, the
     in the general ledger. The distributors    usage for monthly readings; (3) lack        customer left the distributor in 2008.
     generally agreed to take actions to        of documented policies and errors
     address the other issues noted above.      in billing for well pumps; (4) lack         TVA management did not pursue
                                                of policies over expenditures;              recovery of the $174,000 because
                                                and (5) inaccurate data in meter            they believed litigation would not be
     >U
       se of Electric                          management systems. The                     successful. Instead TVA stated the
      Revenues                                  distributors generally agreed to            focus was on putting procedures and
     We noted the distributors had more         take actions to address these issues.       processes in place to assure pricing
     than enough cash on hand to fund                                                       programs are implemented as intended
     planned capital expenditures and                                                       in the future. In addition, TVA reviewed
     provide a cash reserve. While TVA has      > TVA Billing Error
                                                                                            other customer contracts for the CIR at
     established guidelines to determine if a   TVA incorrectly billed a distributor
                                                                                            other distributors and took action to
     distributor has adequate cash reserves     for the Competitive Index Rate (CIR)
                                                                                            make necessary adjustments.
     (cash ratio of 5 to 8 percent), TVA has    credit. According to the wholesale
     not established guidelines to determine    contract with the distributor, the retail
     if a distributor’s cash reserves are       rates used in calculating the CIR credit    > Opportunities
     excessive. All four distributors           were to be changed in line with the            for TVA Oversight
     reviewed had cash ratios exceeding         rate changes of the competing system.          Improvements
     the minimum guidelines of 5 to 8           However, the distributor’s retail           We found opportunities for TVA to
     percent. TVA agreed to establish these     contract with the end-use customer          enhance oversight of the distributors.
     guidelines.                                provided fixed retail rates for a five-     Specifically, we noted TVA: (1) did
                                                year period regardless of rate changes      not include cash used to prepay
t    We also found a distributor paid for a     made by the competing system. The           TVA power in the calculation of the
v    feasibility study for a nonelectric line   competing system’s rates changed            cash ratio for rate review purposes;
     of business using electric system funds    in May 2006; however, TVA did not           (2) had not provided definitive
a
     prior to obtaining TVA approval. After     adjust the CIR credit because: (1) the      guidance for distributors on what
     obtaining TVA approval to loan funds to    inconsistencies between the wholesale       constituted prudent expenditures;
32
o
i
     Semiannual Report | October 1, 2009 – March 31, 2010
g
(3) had not adequately defined how
often meters should be tested by the
distributors; (4) had not performed
a joint-cost study in a timely manner;
and (5) had not defined at what point
a demand meter is required for certain
commercial rate class customers.
TVA agreed to take action on all
identified issues.




IT Audits
>A
  reas of
 Improvement
 Noted in Federal
 Information Security
 Management Act                                                                                           IT audits TEAM
FISMA was meant to bolster computer
and network security within the federal     > Backup
                                                    and Recovery                      > FY 2009 IT SOX 404
government. As a part of FISMA, the           Controls Need                               Testing Identified
OIG performs an annual review of              Improvement                                 Opportunities for
TVA’s information security program.         We reviewed the controls over backup          Improvement
In comparison to the FY 2008 FISMA          and recovery of applications, data,        During the first half of the semiannual
report, we found TVA had generally          network device configurations, and         period, we completed: (1) year-end
improved in the area of establishing its    control system configurations for five     remediation and nonoccurrence
inventory of systems requiring certi-       business units. We found TVA had           testing for 18 IT general controls and
fication and accreditation and general      significant weaknesses in the controls     31 application controls, which were
security awareness training for network     over backup and recovery of: (1)           initiated at the end of the previous FY,
users. However, we identified several       network device and (2) control system      and (2) a design review of IT general
areas during this year’s audit in which:    configurations. We also found the          controls in place to address financial
(1) performance had declined, or (2)        controls for the backup and recovery       reporting risks. We noted opportunities
TVA had not completed actions from          of data were effective; except in the      to improve SOX documentation,
the prior year’s audits. Specifically,      areas of: (1) monitoring of partially      operating effectiveness of controls,
we noted improvements were needed           completed backups; (2) initial backup      and areas where control gaps existed.
in the following areas: (1) the oversight   and restore testing for new servers; and   Additionally, we found documented
and evaluation of contractor systems;       (3) remote media management. Finally,      risks have not been updated since the
(2) the plan of action and milestones       we noted areas for improvement related     inception of the TVA SOX compliance
process; (3) the certification and          to storage and destruction of backup       program. We recommended TVA
accreditation process; (4) incident         media in one business unit and backup      management perform a top-down
reporting; and (5) security awareness       of Remote Terminal Units in another        risk analysis to better align the risks,
training. TVA management generally          business unit. TVA management              control objectives, and control activities
agreed with our findings and has            generally agreed with our findings and     with financial reporting risks. TVA
taken or is in the process of taking        has taken or is in the process of taking   management generally agreed with
corrective action to remediate issues       corrective action to remediate issues      our findings and has taken or is in the      t
noted in this audit.                        noted in these audits.                     process of taking corrective action to       v
                                                                                       remediate issues noted in these audits.      a

                                                                                                                                    33
                                                                                                                                    o
                                                                                                                                    i
                                                                           Semiannual Report | October 1, 2009 – March 31, 2010
                                                                                                                                    g
                             Summary of Representative Investigations




Semiannual Report | October 1, 2009 – March 31, 2010
Summary of
Representative
Investigations
During this semiannual
period, we completed 198
investigations of criminal
and administrative matters
covering a wide range of topics
including conflict of interest,
workers’ compensation fraud,
theft of government property,
and safety reporting issues to
name a few. Specifically, the
criminal investigations resulted
in four indictments with two
                                                                                           investigations TEAM
involving workers’ compensation
fraud, one involving conflict of   We also continued our data mining          manager, the former Economic
interest, and another involving    efforts to identify potential areas for    Development manager’s duties
destruction of government          investigation. Two data mining projects    included overseeing environmentally-
                                   focused on TVA credit card transactions.   friendly development projects and
property. In addition, three
                                   One involved purchases of electronics      approving invoices submitted by
convictions and two pretrial       and the other entailed purchases           contractors who performed work on
diversions were obtained           associated with entertainment, golfing,    the TVA project he supervised. The
during this period. One of the     and athletic venues. These reviews         former manager admitted that in
convictions entailed a conflict    resulted in changes to TVA’s policies      the course of performing his official
of interest by a TVA Economic      and increased program monitoring           duties, he personally approved two
                                   by TVA demonstrating that the work         invoices to TVA from the Center for
Development manager, another
                                   of Investigations not only results in      Economic Development and Resource
involved theft of TVA property,
                                   criminal sanctions, but often results      Stewardship (CEDARS). Prior to
and a third case involved the      in a better TVA.                           the approval of these invoices, he
destruction of TVA property                                                   personally loaned $2,500 to CEDARS
(not included in narrative         >F
                                     ormer TVA Economic                      as “start up” money and loaned
below). One of the pretrial         Development                               CEDARS $5,000 on behalf of Enginuity
diversions concerned forged         Project Manager                           Development Group, LLC, a limited
                                    Pleads Guilty to                          liability company of which he was a
and falsified invoices by a TVA
                                    Conflict of Interest                      member. The former manager admitted
manager and one included theft                                                he knew he had a financial interest in
                                   A former TVA Economic Development
of TVA property. Twenty-one                                                   CEDARS and had violated the federal
                                   project manager pled guilty in
investigations led to changes                                                 conflict of interest statute by approving
                                   United States District Court for the
in management procedures           Eastern District of Tennessee on           the invoices.
or actions to reinforce existing   January 19, 2010, to two counts of                                                     t
                                                                              Sentencing for this case is scheduled
policies. As a result of our       violating 18 United States Code, Sec.      for June 2010 at which time, the former     v
investigations, disciplinary       208(a), a federal criminal conflict of     TVA manager could receive up to five        a
action was taken against           interest statute. While employed by        years imprisonment and a $250,000
                                   TVA as a technical services project        fine for each of two counts alleging        35
seven individuals.
                                                                                                                          o
                                                                                                                          i
                                                                  Semiannual Report | October 1, 2009 – March 31, 2010
                                                                                                                          g
     violation of the conflict of interest       in the foreman confessing to stealing     > Copper Thefts at
     statute. The former manager                 the water heater, resigning his              TVA’s Hartsville
     resigned from TVA in April 2008             position at TVA, and pleading guilty         Facility Lead to
     after a management alert was issued         in state court to a theft charge. The        Federal Charges
     by our office.                              OIG later learned that the plant HR       TVA OIG and TVAP jointly conducted an
                                                 department failed to timely note his      investigation into copper thefts at TVA’s
                                                 ineligibility for rehire, and that he     Hartsville facility by two local residents
     >F
       ormer TVA Nuclear
      Assurance Program                          had regained employment at the COF        resulting in losses totaling $35,786.
      Manager Enters                             through a contractor. The OIG advised     The investigation revealed that on 11
      Pretrial Diversion                         plant HR personnel of the matter,         occasions the two men took TVA copper
      Program                                    and the rehire status was quickly         to a recycling business in LaFayette,
                                                 rescinded. The OIG followed up with       Tennessee. Both men were arrested
     In the last semiannual report, we
                                                 a Report of Administrative Inquiry,       and indicted in federal court. One of the
     reported that a former TVA program
                                                 recommending changes in process to        individuals entered into an 18-month
     manager at Watts Bar Nuclear Plant was
                                                 ensure that employment eligibility is     pretrial diversion agreement. The other
     indicted on August 3, 2009, in Circuit
                                                 properly and timely addressed. The        was convicted in federal court and
     Court in Rhea County, Tennessee, on
                                                 recommendations were accepted and         sentenced to five months at a halfway
     one criminal count alleging forgery
                                                 set for implementation fleet-wide.        house, five months’ home confinement,
     and passing forged instruments. The
     former manager created and submitted                                                  and three years’ probation. They were
     a false invoice to TVA, claiming property                                             assessed joint restitution totaling
     damage during a move of his personal                                                  $35,876. During an interview of one
     household goods related to his TVA          >C
                                                   hemist at Tennessee                    of the subjects, suspicious activity was
     employment. On January 8, 2010,              Company Sentenced                        observed by the OIG Agents. District
     the former TVA manager entered into          for Environmental                        drug task force officers were notified
     a pretrial diversion program for a           Violation                                and further inquiry resulted in the
     one-year period. In addition, the OIG       A chemist at a Tennessee chemical         arrest and indictment of 10 individuals,
     issued a report to TVA management,          company was indicted in federal court     including the person being interviewed,
     recommending TVA consider including         and pled guilty on a Clean Water Act      on drug related charges.
     an employment restriction in TVA’s          violation as previously reported.
     personnel security records to ensure        The chemist falsely represented that
     that the results of this investigation      wastewater at the company’s plant in      > Contractor at
     are considered if the former manager        Etowah, Tennessee, had been analyzed         Kingston Fossil
     seeks future employment with TVA.           for aluminum when it had not. The            Plant Operating
                                                 company’s water is discharged into the       Without a Valid
                                                 Hiwassee River, which is a part of TVA       Business License
                                                 watershed area. On October 19, 2009,      The OIG investigated allegations that
     >F
       lawed Procedure
                                                 the chemist was sentenced to one year     an Alabama contractor did not have
      Leads to TVA
                                                 probation, 100 hours of community         a valid Alabama business license
      Employee Being
                                                 service as a special condition of         while performing work at TVA. We
      Rehired after
                                                 probation, and received a $5,000 fine.    determined the contractor had a valid
      Pleading Guilty
                                                 The United States Attorney declined       Alabama business license; however,
      to Theft
                                                 prosecution against the corporation       the contractor was performing work at
     A TVA maintenance foreman at
                                                 because they met Department of            TVA’s Kingston Fossil Plant and did not
     Colbert Fossil Plant (COF) used a TVA
                                                 Justice guidelines for self disclosure.   have a valid Tennessee business license.
     purchase request to buy a 50-gallon hot
                                                 This investigation was conducted          We recommended management remove
t    water heater for the plant, which the
                                                 jointly by TVA OIG and the EPA            the contractor from the site until a valid
     employee later took and installed in
v                                                Criminal Investigation Division in        license could be obtained. Management
     his home. The OIG investigated the
a                                                conjunction with the Eastern District     agreed and also implemented other
     matter in conjunction with the TVA
                                                 Environmental Crimes Task Force.          recommended actions to verify future
     Police and the investigation culminated
36                                                                                         contractors’ licenses.
o
i
     Semiannual Report | October 1, 2009 – March 31, 2010
g
>T
  VA Documents Not                       report, and by implementing required       compensation-benefits checks while he
 Properly Stamped by                      training for affected supervisory          was incarcerated on an unrelated felony.
 TVA Engineer                             personnel.
                                                                                     In another workers’ compensation
Documents reviewed during the
                                                                                     investigation, a now former Widows
review of the the Kingston ash            > Investigation of                        Creek Fossil Plant employee was
containment pond failure revealed            Falsification of                        indicted in federal court in the Northern
that a TVA engineer had used his             Documentation                           District of Alabama on two counts of
professional licensing stamp on              During SOX Audit                        making false statements. The former
some of the documents, but had            OIG Investigations received an             plant worker claimed he was injured
failed to affix his signature to the      allegation originating with IT             on the job but later confessed he had
stamp. In addition, other documents       Engineering and IT Audits that             been previously treated by his personal
were missing his stamp and signature      information reported to OIG IT Audits      physician for the same symptoms. TVA
entirely. We recommended TVA              personnel may have been falsified.         terminated his employment as a result
review its practice on the use of         The information bore directly on a         of our investigation.
stamping engineering documents,           Sarbanes-Oxley related audit. The
and TVA management agreed with            investigation confirmed that an
our recommendations.                      employee had changed the date of
                                          a restore log in two locations from
                                                                                     > OIG Data Mining
                                          October 12, 2009, to July 6, 2009.            Program Results
                                          Criminal prosecution was declined, and
                                                                                     The OIG continued to use data mining to
>P
  ractices of TVA                        the OIG issued a report recommending
                                                                                     identify instances of waste, fraud, and
 Management in                            TVA Management revise existing
                                                                                     abuse of TVA resources. We completed
 Employee Injury                          policies and procedures to ensure that
                                                                                     two projects related to TVA credit card
 Cases Questioned                         Sarbanes-Oxley data is maintained
                                                                                     transactions. These are outlined below
The OIG investigated two highly           for a reasonable time period to allow
                                                                                     along with management action taken as
complex cases concerning:                 for adequate testing, and that security
                                                                                     a result of our recommendations.
(1) questionable injury reporting;        measures are implemented to ensure
(2) employee compensation;                that future falsifications cannot occur.   • Charges at Best Buy
(3) workers’ compensation; and            Management agreed with the issues             A review of transactions from March
(4) interrelated OSHA regulations.        presented, and the responsible party’s        2006 to April 2009 identified a high
Both cases involved seriously injured     employment was terminated.                    volume of credit card purchases
workers, who required substantial                                                       from Best Buy, a major electronics
medical attention following on-the-                                                     retailer. Specifically, we identified
job accidents, including being placed                                                   371 transactions totaling more than
on reduced, or “light,” duty. Both        > Investigation                              $322,000 in purchases including
investigations concluded that, while no      of Workers’                                televisions, digital recorders, GPS
violation of criminal law was evident,       Compensation Fraud                         units, Apple ipods®, MyBook hard
there was a disconnect between            The OIG continued to conduct                  drives, and other small electronics.
(1) TVA policies and procedures, and      investigations of workers’                    More than $126,000 of these items
(2) federal regulations regarding light   compensation fraud. Two                       were purchased for employee
duty and lost time resulting from the     investigations in this area led to            recognition. Because of potential
accidents. Additionally, there was an     indictments during this semiannual            abuse and negative publicity for TVA,
issue of knowledge and practice of the    period. In one of these investigations,       we recommended TVA establish
requirements by TVA Power Service         a former TVA employee receiving               an inventory tracking process for
Shop management and supervisors.          workers’ compensation benefits was            these items and similar electronic
The OIG sent a Report of Administrative                                                                                          t
                                          indicted in Tennessee state court on          purchases.
Inquiry to TVA management, who            two counts of theft. The former TVA                                                    v
responded positively by noting the        employee violated OWCP regulations by       Management responded to our report        a
changes that had taken place between      having his daughter collect and cash his     and stated TVA has strengthened
the date of injury and the date of the                                                 controls to reduce the number of          37
                                                                                                                                 o
                                                                                                                                 i
                                                                         Semiannual Report | October 1, 2009 – March 31, 2010
                                                                                                                                 g
      cards outstanding by 25 percent.           (2) Numerous athletic venues            • Three Investigations of
      In addition, merchant codes for                 including:                             Hospitality Expenditures
      electronic equipment will be blocked,           • A music concert at Ford Field
      preventing these types of purchases                 in Detroit Michigan;            From this data mining effort, three
      in the future. TVA also agreed to               • 24 tickets to a major league     separate investigations were opened.
      establish a tracking process and is                 baseball game;                  The investigations concluded that a
      working to incorporate these items               • A professional football game;    substantial number of the questioned
      with TVA’s new IT Asset Management               • Season tickets to SEC football   charges resulting from the data mining
      Program. TVA immediately identified                  games; and                     review fell within accepted hospitality
      and tagged select items and stablished           • Hunting events.                 expenditure guidelines. Other charges,
      a process to track new purchases.                                                   while technically falling within TVA
                                               Although all of the reviewed               guidelines for expenditures, created
     • Golfing, Entertainment, and Athletic   transactions were approved, many           real or apparent risks in that some
        Venues in Credit Card Data             appeared to violate TVA’s policy on        recipients could run afoul of state ethics
                                               hospitality. In light of the fact such     laws regarding the receipt of gifts in
                                               expenditures have been discussed           their official capacities. In all cases,
                                               by the news media and can create a         TVA-sponsored attendees should be
                                               negative image of TVA to the public,       documented. The OIG sent a report
                                               we recommended TVA officials review        to management outlining the findings
                                               the practices governing the use of         and suggestions to which management
                                               credit cards and the types of allowable    responded positively.
                                               transactions.

                                               TVA management agreed with the
                                                                                          > Repeated use of
                                               majority of our findings and was
                                                                                             partially completed
                                               already aware of these issues as a
                                                                                             Daily Monitoring
                                               result of the Freedom of Information          Logs at Kingston
                                               Act (FOIA) requests on this subject.          Fossil Plant
                                               TVA’s Compliance & Advisory Services          Investigated
                                               (CAS) performed a detailed analysis
                                                                                          Following the ash spill at Kingston
                                               of 74 percent of the transactions in
                                                                                          Fossil Plant, a review of documents
                                               the OIG inquiry and identified more
                                                                                          revealed that daily monitoring logs
     Earlier reviews of credit card            than $37,000 in transactions that were
                                                                                          from the dredge cell seep repair area
     transactions identified numerous items    disallowed by TVA policies, practices,
                                                                                          appeared to be copies of previous logs
     associated with entertainment, golfing,   and procedures. CAS is in the process
                                                                                          with only the time, date, and weather
     and athletic venues. As a follow up, we   of completing a comprehensive
                                                                                          data at the top of the logs being
     performed a more detailed review of       review of the Hospitality and the Gold
                                                                                          changed, giving the appearance that
     previous findings in order to determine   Card programs. Their preliminary
                                                                                          the logs may have been falsified. Some
     the causes and approvals of the           review indicated that enhancements,
                                                                                          logs contained minor changes such as
     expenditures and to make corrective       clarifications and further guidance are
                                                                                          additional check marks, answers with
     recommendations. We reviewed              needed to better enforce compliance.
                                                                                          strikethroughs, or brief comments or
     transactions from January 1, 2007,        Though TVA expected to issue a
                                                                                          single words added. Others were exact
     to July 31, 2009, where TVA hosted        final report in November 2009, the
                                                                                          copies of previously used logs with
     stakeholders, business prospects,         review was expanded to include the
                                                                                          no additional information added. The
     contractors, politicians, and employees   period ending February 2010. TVA
                                                                                          Tennessee Department of Environment
     with entertainment, including the         additionally incorporated the review
t                                                                                         and Conservation expressed extreme
     following:                                as part of an ongoing initiative of
v                                                                                         concern over the issue.
                                               continuous monitoring.
a     (1) G
           olf outings and related
          expenditures totaling
38        $84,410; and

o
i
     Semiannual Report | October 1, 2009 – March 31, 2010
g
Our investigation determined that           > Inadequate Controls                    Due to poor controls at Paradise, the
most of the documents had been                 over Limestone                         OIG was unable to conclude with
prepared by one TVA employee, but this         Deliveries Identified                  certainty whether or not the plant
employee explained he made copies              at Paradise                            had been shorted limestone by the
of the logs to use as a guide during        The OIG received a report that a TVA      supplier. A report was submitted to
the inspections to avoid having to          contract supplier was overbilling for     TVA management which included
redo a new form each day. He stated         limestone delivered at the Paradise       recommendations to improve controls
that conditions on Swan Pond Road           Fossil Plant. Limestone is used in the    relating to truck traffic and load weight
frequently did not change from day          plant’s scrubbers and is delivered by     verification. In response to the report,
to day. However, if any changes were        the supplier at a rate of approximately   TVA assigned a security guard to check
noticed, he added additional comments,      25 tons per truckload. The OIG            receipts as trucks enter the plant
as applicable, to accurately reflect the    investigated the matter by observing      grounds and is investigating installing
changes. He further stated that the pre-    and recording the number of truckloads    a card reader to automate the process.
written answers, as copied, remained        of limestone delivered by the supplier    We are following up with management
accurate unless otherwise noted. The        to the plant over a 17-day period.        on the issue regarding the weights.
employee denied ever completing a           The number of deliveries was then
Daily Inspection Log without actually       compared to the invoices submitted
completing an inspection. After the         to the plant by the supplier. Over the
inspection was completed, he placed         17 day period, it appeared that TVA
the logs in a binder at the plant, but      was overbilled for four truckloads of
the employee’s supervisor was not           limestone. However, the tare weight
aware of the use of either the forms        on the invoices was not reliable.
or the binder; consequently, the logs       Interviews of plant employees showed
were never reviewed by anyone. The          that TVA primarily relied on the
investigation revealed a lack of clarity    unverified delivery weights provided by
in the division of responsibility for the   the supplier.
dredge cell seep repair area between
the Heavy Equipment Division and the
By-Products Group, as well as the role
of a TVA contractor.

The OIG issued a report to management
which included four recommendations,
all of which were addressed in
management’s response to the report.
The recommendations included:
(1) use of a new checklist and entry
for each inspection; (2) review of
inspections by a supervising official;                                                                PARADISE FOSSIL PLANT
(3) steps to assure issues noted
during inspections are addressed as
appropriate and documentation of
TVA’s response to those issues is
retained in an easily retrievable system
of records; and (4) procedures to assure
inspections are conducted routinely and                                                                                           t
not only when a certain crew is on duty,
                                                                                                                                  v
as appears to have been the case with
                                                                                                                                  a
the dredge cell seep repair area at the
Kingston Fossil Plant.
                                                                                                                                  39
                                                                                                                                  o
                                                                                                                                  i
                                                                          Semiannual Report | October 1, 2009 – March 31, 2010
                                                                                                                                  g
                                       Legislation and Regulations




Semiannual Report | October 1, 2009 – March 31, 2010
Legislation and Regulations
In fulfilling its responsibilities under the IG Act of 1978, as amended, the OIG follows and reviews existing and proposed
legislation and regulations that relate to the mandate, operations and programs of TVA. Although TVA’s Office of the
General Counsel reviews proposed or enacted legislation that could affect TVA activities, the OIG independently follows
and reviews proposed legislation that affects the OIG and/or relates to economy and efficiency or waste, fraud, and abuse
of TVA programs or operations.

Major pieces of legislation being followed by the TVA OIG during the past six months include:

> S. 1745 – Non-Federal                            The legislation would also require the            > H.R. 5026 Grid Reliability
   Employee Whistleblower                           disclosure by any Executive agency of its            and Infrastructure
   Protection Act of 2009                           sponsorship for any advertisement or                 Defense Act
This legislation expands the whistleblower          communication in the communication                This legislation has as its purpose
provisions under Section 1553 of the                itself. In addition, the legislation amends the   strengthening the defenses of the nation’s
American Recovery and Reinvestment Act of           Freedom of Information Act (FOIA) so that all     critical electric infrastructure against cyber-
2009 (P.L. 111-5) which cover whistleblowing        information included in the agency’s response     threats. The bill would grant the Federal
reprisal allegations by state, local, and           to a FOIA request shall be made available         Energy Regulatory Commission (FERC)
contractor employees whose employers                to the public electronically, free of charge      emergency powers when the nation’s
receive covered stimulus funds. S. 1745             through each agency’s Web site.                   president identifies an imminent grid security
would amend the Federal Property and                                                                  threat. In addition, the bill directs FERC in
Administrative Services Act of 1949, 41 U.S.C.                                                        consultation with the appropriate Federal
                                                    >S
                                                      . 2995 – Clean Air
§ 265, to expand protections to employees                                                             agencies, and after notice and opportunity
                                                     Amendments Act of 2010
of private contractors or grantees who                                                                to comment, to implement actions to protect
receive funds or property from the Federal          This legislation amends the Clean Air Act to      the reliability of the nation’s electric bulk
Government.                                         establish a national uniform air pollutant        power system for any identified grid security
                                                    regulatory program for the electric generating    vulnerability which has not been addressed
The Bill, with certain exceptions, would                                                              by the North American Electric Reliability
                                                    sector in the 48 contiguous states and the
require IGs to investigate reprisal complaints                                                        Corporation. The legislation also directs the
                                                    District of Columbia. The intent of the bill is
and submit a “report of the findings of the                                                           nation’s president to designate not more than
                                                    to benefit people’s health and environment
investigation” to the complainant, his/her                                                            100 domestic critical defense facilities most
                                                    by reducing the adverse effects of energy
employer, and the head of the agency.                                                                 vulnerable to a disruption of electricity. If
                                                    production and use. The bill calls for the
                                                    promulgation of emission standards that aim       FERC determines there is an unaddressed
> H.R. 4983, Transparency in                       to reduce emissions from coal-fired power         electric infrastructure vulnerability serving
   Government Act                                   plants of mercury by 90 percent by 2015, of       that facility, than FERC is to order measures
This legislation would amend Section 5(a)           sulfur dioxide by 80 percent by 2018, and of      to protect the facility against the identified
(3) of the Federal Funding Accountability and       nitrogen oxides by more than 50 percent by        vulnerability.
Transparency Act to provide that: each agency       2015.
inspector general: (1) reviews a statistically                                                        >S
                                                                                                        . 976 – A Bill Amending
representative sample of agency Federal             >H
                                                      .R. 4858, The Public
                                                                                                       Subchapter I of
awards every 6 months for the first three            Information Act of 2010                           Chapter 35 of Title 44
years following enactment of this section, and      This legislation would require executive          This legislation would exempt from the
annually thereafter, to determine whether           branch agencies, including government             Paperwork Reduction Act, 44 U.S.C. § 3501
agencies have appropriate measures in place         corporations and other establishments in          et seq., the collection of information during
to review Federal Funding Accountability and        the executive branch, to make their public        any investigation, audit, inspection,
Transparency data submissions for accuracy          records available on the internet at no charge    evaluation, or other review by federal
and completeness; (2) reports to the Director       to the public. Section 7(d) of the bill would
                                                                                                      Inspector General Offices.
of the Office of Management and Budget              require IGs to conduct periodic reviews of
and the head of the agency the findings of          their agencies’ compliance with the internet
                                                                                                                                                        t
the review, including recommendations for           publication requirements at least once every                                                        v
corrective action; and (3) makes publicly           four years and to post the results of the                                                           a
available, including through the Web site           reviews on the internet.
created by this Act, the findings of the review.”                                                                                                       41
                                                                                                                                                        o
                                                                                                                                                        i
                                                                                       Semiannual Report | October 1, 2009 – March 31, 2010
                                                                                                                                                        g
                                                   Appendices




Semiannual Report | October 1, 2009 – March 31, 2010
Appendix 1
               Index On Reporting Requirements Under The IG Act
        REPORTING                                             REQUIREMENT                                        PAGE

  Section 4(a)(2)               Review of Legislation and Regulations                                            40-41

  Section 5(a)(1)               Significant Problems, Abuses, and Deficiencies                                   22-39

  Section 5(a)(2)               Recommendations With Respect to Significant Problems, Abuses,                    22-39
                                and Deficiencies
  Section 5(a)(3)               Recommendations Described in Previous Semiannual Reports in                    Appendix 4
                                Which Corrective Action Has Not Been Completed
  Section 5(a)(4)               Matters Referred to Prosecutive Authorities and the Prosecutions               Appendix 5
                                and Convictions That Have Resulted
  Section 5(a)(5) and 6(b)(2)   Summary of Instances Where Information Was Refused                                None

  Section 5(a)(6)               Listing of Audit and Inspection Reports, Showing Dollar Value of               Appendix 2
                                Questioned Costs, Unsupported Costs, and Recommendations as to
                                Funds to be Put to Better Use
  Section 5(a)(7)               Summary of Particularly Significant Reports                                      22-39

  Section 5(a)(8)               Status of Management Decisions for Audit and Inspection Reports                Appendix 3
                                Containing Questioned Costs
  Section 5(a)(9)               Status of Management Decisions for Audit and Inspection Reports                Appendix 3
                                Containing Recommendations That Funds Be Put to Better Use
  Section 5(a)(10)              Summary of Audit and Inspection Reports Issued Prior to the Beginning of          None
                                the Reporting Period for Which No Management Decision Has Been Made
  Section 5(a)(11)              Significant Revised Management Decisions                                          None

  Section 5(a)(12)              Significant Management Decisions With Which the Inspector General Disagreed       None

  Section 5(a)(13)              Information under Federal Financial Management Improvement Act of 1996            None




                                                                                                                                     t
                                                                                                                                     v
                                                                                                                                     a

                                                                                                                                     43
                                                                                                                                     o
                                                                                                                                     i
                                                                              Semiannual Report | October 1, 2009 – March 31, 2010
                                                                                                                                     g
     Appendix 2

                        OIG AUDIT REPORTS ISSUED DURING THE THE SIX-MONTH
                                   PERIOD ENDED MARCH 31, 2010
         Report
       Number and                                                                           Questioned    Unsupported    Funds to be Put
          Date                                         Title                                  Costs          Costs        to Better Use
                                                                CONTRACT AUDITS
     2009-12306      Blue Cross Blue Shield of Tennessee Contract for Administration            $25,591        $17,713               $0
     11/17/2009      Services for Dental Benefits

     2009-12689      Review of TVA's Decision to Construct a Gas Plant in Northeast                  $0            $0                $0
     11/24/2009      Tennessee

     2009-12871      Preaward Review – Retiree Staff Augmentation Services                           $0            $0          $854,000
     12/04/2009
     2009-12908      Preaward Review – Proposal to Provide Engineering Design and                    $0            $0         $6,500,000
     12/17/2009      Support Services
     2008-12050      Pinkerton Government Services, Inc, Review of Costs Billed Under          $286,881         $6,665               $0
     01/20/2010      Contract Nos. 17952 and 17935
     2009-12907      Preaward Review – Proposal to Provide Engineering Design and Support            $0            $0         $2,200,000
     01/26/2010      Services
     2008-11973      Bechtel Power Corporation Costs Billed Under Contract No. 58949           $217,487            $0                $0
     02/04/2010      for WBN Unit 2 DSEP
     2009-12909      Worley Parsons Proposal for Engineering Design and Support and                  $0            $0                $0
     02/04/2010      Services
     2009-12905      Preaward Review – Proposal to Provide Engineering Design and                    $0            $0          $148,600
     02/18/2010      Support Services
     2007-028C       Holtec International, Inc.                                                $276,000            $0                $0
     03/17/2010
                                                               DISTRIBUTOR AUDITS
     2008-12037      Distributor Review of Bolivar Energy Authority                                  $0            $0                $0
     10/15/2009
     2008-12042      Distributor Review of Tullahoma Utilities Board                                 $0            $0                $0
     01/19/2010
     2008-12041      Distributor Review of Princeton Electric Plant Board                            $0            $0                $0
     01/20/2010
     2008-12038      Distributor Review of Murphy Electric Power Board                         $174,000            $0                $0
     02/19/2010
                                                  FINANCIAL AND OPERATIONAL AUDITS
     2009-12893      Agreed-Upon Procedures for TVA Fiscal Year 2009 Performance Measures            $0            $0                $0
     11/09/2009
     2009-12326      Review of the Tennessee Valley Authority Retirement System                      $0            $0                $0
     02/12/2010
     2009-12296      Review of Green Power Marketing                                                 $0            $0                $0
     02/18/2010
t    2009-12292      TVA's Hearing Conservation Program                                              $0            $0                $0
v    02/25/2010
a

44
o
i
     Semiannual Report | October 1, 2009 – March 31, 2010
g
                                                  INFORMATION TECHNOLOGY AUDITS
     2009-12338-04   Enterprise Backup and Recovery – Nuclear Power Group                                     $0               $0                  $0
     11/30/2009
     2009-12747      Sarbanes-Oxley Remediation Testing – IT General Controls and Applica-                    $0               $0                  $0
     12/08/2009      tion Control Narratives
     2009-12338-06   Enterprise Backup and Recovery – Nuclear Security and Access Control                     $0               $0                  $0
     12/09/2009
     2009-12338-08   Enterprise Backup and Recovery –Power Systems Operations                                 $0               $0                  $0
     01/19/2010
     2009-12697      Federal Information Security Management Act Evaluation                                   $0               $0                  $0
     01/25/2010
     2009-12338-05   Enterprise Backup and Recovery–Information Services                                      $0               $0                  $0
     01/26/2010
     2009-12338-07   Enterprise Backup and Recovery –Fossil Power Group                                       $0               $0                  $0
     01/26/2010
     2009-12994      Sarbanes-Oxley IT Control Design Review                                                  $0               $0                  $0
     03/02/2010

     TOTAL                                                                                              $979,9591          $24,378         $9,702,600
     AUDITS (26)




                                  OIG INSPECTION REPORTS ISSUED DURING THE
                                SIX-MONTH PERIOD ENDED ENDED MARCH 31, 2010

        Report Number                                                                                  Questioned       Unsupported      Funds to be Put
          and Date                                          Title                                        Costs             Costs          to Better Use
       2007-11400          Review of TVA's Operational Performance Results                                         $0               $0                  $0
       11/23/2009
       2008-11995          Review of Educational Degrees for Contractors Assigned to the                           $0               $0                  $0
       12/03/2009          Watts Bar Nuclear Plant Unit 2 Construction Completion Project
       2009-12652                                                                                                  $0               $0                  $0
                           Review of TVA’s Reservoir Operations Program
       01/07/2010

       TOTAL                                                                                                        0                0                  0
       INSPECTIONS (3)

Note: A summary of or link to the full report may be found on the OIG’s website at http://www.tvaoig.gov.




                                                                                                                                                             t
                                                                                                                                                             v
 Includes $33,000 of unrecoverable costs.
1

                                                                                                                                                             a

                                                                                                                                                             45
                                                                                                                                                             o
                                                                                                                                                             i
                                                                                            Semiannual Report | October 1, 2009 – March 31, 2010
                                                                                                                                                             g
     Appendix 3
                                 TABLE I: TOTAL QUESTIONED AND UNSUPPORTED COSTS
                                                       AUDITS
                                                                                          Number of                  Questioned                   Unsupported
                                     Audit Reports                                         Reports                     Costs                         Costs
         A. For which no management decision has been made                                     4                          $3,909,940                     $656,058
             by the commencement of the period
         B. Which were issued during the reporting period                                       5                             $979,959                     $24,378
         Subtotal (A+B)                                                                        91                        $4,889,899                       $680,436
         C. F or which a management decision was made during the                              92                          $4,714,805                     $680,436
            reporting period
            1. Dollar value of disallowed costs                                                 8                          $2,255,467                     $680,436
            2. Dollar value of costs not disallowed                                             3                          $2,459,338                            $0
         D. For which no management decision has been made                                     1                             $175,094                           $0
             by the end of the reporting period
         E. F or which no management decision was made within                                  0                                   $0                           $0
            six months of issuance




                                 TABLE I: TOTAL QUESTIONED AND UNSUPPORTED COSTS
                                                    INSPECTIONS
                                                                                          Number of                 Questioned                 Unsupported
                                     Audit Reports                                         Reports                    Costs                       Costs
         A. For which no management decision has been made                                    0                         $0                          $0
             by the commencement of the period
         B. Which were issued during the reporting period                                      0                          0                           0
         Subtotal (A+B)                                                                        0                          0                           0
         C. F or which a management decision was made during the                              0                          0                           0
             reporting period
            1. Dollar value of disallowed costs                                                0                          0                           0
            2. Dollar value of costs not disallowed                                            0                          0                           0
         D. F or which no management decision has been made                                   0                          0                           0
             by the end of the reporting period
         E. F or which no management decision was made within                                 0                          0                           0
             six months of issuance




t
v
     1
          he subtotal of reports (A+B) differs from the sum of C and D when the same report(s) contain recommendations for which a management decision was made
         T
a        and other recommendations for which a management decision was not made by the end of the semiannual period.


46   2
          he total number of reports for which a management decision was made during the reporting period differs from the sum of C(1) and C(2) when the same
         T
         report(s) contain both recommendations agreed to by management and other not agreed to by management.
o
i
     Semiannual Report | October 1, 2009 – March 31, 2010
g
                                     TABLE II: FUNDS TO BE PUT TO BETTER USE
                                                      AUDITS

                                 Audit Reports                                        Number of Reports               Funds to be Put to Better Use
     A. F or which no management decision has been made                                        5                                          $39,888,000
         by the commencement of the period
     B. Which were issued during the reporting period                                           4                                           $9,702,600
     Subtotal (A+B)                                                                             9                                         $49,590,600
     C. F or which a management decision was made during the                                   83                                         $49,442,000
         reporting period
        1. Dollar value of recommendations agreed to by management                              3                                           $8,852,500
        2. Dollar value of recommendations not agreed to by management                          6                                          $40,589,500
     D. For which no management decision has been made                                         1                                              $148,600
         by the end of the reporting period
     E. F or which no management decision was made within                                      0                                                       $0
        six months of issuance




                                     TABLE II: FUNDS TO BE PUT TO BETTER USE
                                                   INSPECTIONS
                                 Audit Reports                                        Number of Reports              Funds to be Put to Better Use
     A. F or which no management decision has been made by the                                 0                                    $0
         commencement of the period
     B. Which were issued during the reporting period                                           0                                     0
     Subtotal (A+B)                                                                             0                                     0
     C. F or which a management decision was made during the                                   0                                     0
         reporting period
        1. Dollar value of recommendations agreed to by management                              0                                     0
        2. D
            ollar value of recommendations not agreed to by                                    0                                     0
           management
     D. F or which no management decision has been made by the                                 0                                     0
         end of the reporting period
     E. F or which no management decision was made within six                                  0                                     0
         months of issuance




                                                                                                                                                             t
                                                                                                                                                             v
 The total number of reports for which a management decision was made during the reporting period differs from the sum of C(1) and C(2) when the same
3

 report(s) contain both recommendations agreed to by management and others not agreed to by management.                                                      a

                                                                                                                                                             47
                                                                                                                                                             o
                                                                                                                                                             i
                                                                                            Semiannual Report | October 1, 2009 – March 31, 2010
                                                                                                                                                             g
     Appendix 4
     AUDIT AND INSPECTION REPORTS WITH CORRECTIVE ACTIONS PENDING
     As of the end of the semiannual period, final corrective actions associated with seven audits and three inspections were not completed
     within one year of the final report date. Presented below for each audit and inspection are the report number and date and a brief
     description of the open recommendation(s) and the date management expects to complete final action, if available.


        Audit Report
                                      Report Title and Recommendation(s) for which Corrective Action has Not Been Completed
      Number and Date

      2007-11348-01
      03/26/2008           IT Security Organizational Effectiveness

                           TVA management agreed with our recommendations and has completed actions on three of the six recommendations. TVA
                           is in the process of implementing program and organizational improvements. Action plans are scheduled for completion
                           by June 30, 2010.
      2007-11216
      06/02/2008           Actions to Protect Social Security Numbers and Eliminate Unnecessary Use

                           TVA management has completed final action for one recommendation. According to Information Services, it is on track to
                           meet the action deadline of June 2010 for the remaining two recommendations.
      2008-11754
      06/13/2008           Computer Operations–Manage Facilities – SOX 404 Testing

                           Management has completed actions to address three of the five recommendations. Corrective action for the remaining two
                           recommendations is on track for completion in September 2010.
      2007-11388
      08/21/2008           Sequoyah Nuclear Plant – Cyber Security Assessment

                           TVA management from Nuclear Power Group and Information Services provided corrective action plans to address the
                           recommendations and indicated all corrective actions would be completed by October 2010. Management has completed
                           final actions on six of the fifteen recommendations.
      2008-11945
      11/20/2008           TVA Telework Initiatives

                           The Vice President, Human Resources, issued a TVA-wide policy on December 28, 2009. Other recommendations related to
                           conducting an assessment and working with TVA organizations to specifically identify the positions that are a good fit for
                           teleworking are ongoing.
      2008-11964
      09/25/2008           Federal Information Security Management Act Evaluation

                           Management agreed with our findings and has completed actions for one of the four recommendations. Remediation is
                           targeted for completion by August 31, 2010.
      2008-11965
      02/04/2009           Contractor Workforce Management – Access and General Control Review

                           Because of commitments to implementing MAXIMO for the Nuclear organization, TVA plans to test and evaluate the func-
                           tionality of the upgraded software by March 2010. Pending positive test results, the implementation of the software will
                           follow within the next few weeks. TVA expects that the upgrade, testing, evaluation, and implementation should be com-
                           plete by April 2010.




t
v
a

48
o
i
     Semiannual Report | October 1, 2009 – March 31, 2010
g
    Inspection Report
                                      Report Title and Recommendation(s) for which Corrective Action has Not Been Completed
    Number and Date
    2005-518I
    08/31/2005            Physical and Environmental Controls for the Chattanooga Data Center

                          Information Services has developed a Unified Communications Strategy and Project Plan to replace the telephone system
                          by the end of 2010.
    2005-522I
    06/13/2006            TVA’s Role as a Regulator

                          Initial planned completion of the recommendations was scheduled for December 31, 2006. On March 26, 2010,
                          Compliance Advisory Services indicated that the new target date for final action would be September 30, 2010.
    2007-11443
    09/30/2008            Contractor Background Checks Applicable to the Watts Bar Nuclear Plant Unit 2 Construction Project

                          Nuclear Power Group and Human Resources are currently working to determine what changes are necessary to the back-
                          ground checks for the Watts Bar Nuclear Plant Unit 2 project related to contractor employees and if any changes are re-
                          quired to TVA Business Practice 29.




Appendix 5
INVESTIGATIVE REFERRALS AND PROSECUTIVE RESULTS1
    Referrals

    Subjects Referred to U.S. Attorneys                              18

    Subjects Referred to State/Local Authorities                     2


    Results

    Subject Indicted                                                 4
    Subjects Convicted                                               3

    Pretrial Diversions                                              2

    Referrals Declined                                               19




                                                                                                                                                    t
                                                                                                                                                    v
                                                                                                                                                    a

                                                                                                                                                    49
                                                                                                                                                    o
These numbers include task force activities and joint investigations with other agencies.
1
                                                                                                                                                    i
                                                                                            Semiannual Report | October 1, 2009 – March 31, 2010
                                                                                                                                                    g
     Appendix 6
     HIGHLIGHTS - STATISTICS
                                                            MAR 31,             SEPT 30,             MAR 31,             SEPT 30,             MAR 31,
                                                             2010                 2009                2009                 2008                2008
     AUDITS
     AUDIT STATISTICS
     Carried Forward                                             44                     70                   28                   47                  35
     Started                                                     46                     46                   59                   53                  52
     Canceled                                                   (4)                    (6)                  (3)                  (2)                 (2)
     Completed                                                 (26)                   (66)                 (14)                 (70)                (38)
     In Progress at End of Reporting Period                      60                     44                   70                   28                  47

     AUDIT RESULTS
     Questioned Costs                                         $980                 $6,744               $1,226               $3,609               $774
     Disallowed by TVA                                        2,255                 2,799                  829                1,802                 370
     Recovered by TVA                                         2,999                   909                  644                  676               3,339

     Funds to Be Put to Better Use                           $9,703               $50,570                    $0             $28,653           $100,990
     Agreed to by TVA                                        $8,853                 4,723                     0              28,120             53,987
     Realized by TVA                                            480                 4,395                     0              26,460             53,987

     OTHER AUDIT-RELATED PROJECTS
     Completed                                                   10                     16                    8                    7                   6
     Cost Savings Identified/Realized (Thousands)                $0                     $0                   $0                   $0                  $0

     INSPECTIONS
     Completed                                                    3                     21                    4                   16                   8
     Cost Savings Identified/Realized (Thousands)                $0                     $0                   $0                   $0                  $0

     INVESTIGATIONS1
     INVESTIGATION CASELOAD
     Opened                                                     168                    194                 171                   161                 155
     Closed                                                     198                    223                  91                   135                 121
     In Progress at End of Reporting Period                     1892                   251                 280                   200                 174

     INVESTIGATION RESULTS (Thousands)
     Recoveries                                                $41.8                 $20.6           $10,725.3                $632.6            $25,262
     Savings                                                       0                 472.1                   0                     0              4,137
     Fines/Penalties                                             5.9                    .4               352.7                   1.6                206

     MANAGEMENT ACTIONS
     Disciplinary Actions Taken (# of Subjects)                   7                       6                     3                  15                   9
     Counseling/Management Techniques Employed                   25                     10                      1                   6                 16
     (# of Cases)

     PROSECUTIVE ACTIVITIES (# of Subjects)
     Referred to U.S. Attorneys                                  18                     45                   18                      7                19
t    Referred to State/Local Authorities3                         2                      6                    --                    --                 --
v    Indicted                                                     4                      3                     4                   14                   4
a    Convicted                                                    3                      3                     3                     3                  3
     Pretrial Diversion                                           2                      0                     0                     1                  0
50
o                                                                          These numbers include task force activities and joint investigations with other
                                                                       1

                                                                           agencies.
i                                                                      2
                                                                           Adjusted from the previous period.
     Semiannual Report | October 1, 2009 – March 31, 2010
g                                                                      3
                                                                           Category added in semiannual period ended September 30, 2009.
Appendix 7

                                         Statement of Richard W. Moore
                                  Inspector General, Tennessee Valley Authority
                                                   before the
                               Subcommittee on Water Resources and Environment
                                                      of the
                                 Committee on Transportation and Infrastructure
                                     United States House of Representatives
                                                         December 9, 2009



Madam Chairwoman Johnson, Ranking Member Boozman, and members of the Subcommittee, I appreciate the opportunity to testify before
you on the eve of the one year anniversary of the Kingston ash spill. My written testimony covers the specifics of our assessment of the
degree to which TVA has responded to the findings and recommendations in the recent OIG reports concerning the coal ash spill, clean-up
operations, and TVA’s overall environmental management. My statement this morning, however, will be a broader, higher level analysis of the
current status of TVA.

As you know, my office issued two reports. The first report issued in June of this year evaluated TVA’s (1) initial emergency response,
(2) response to the media, and (3) reparations to the victims and restoration of the community. The second report was issued on
July 23, 2009, and focused on (1) providing an independent peer review of the root cause analysis utilizing the services of Marshall Miller
& Associates, and (2) reviewing TVA’s ash management practices. These reports resulted in nine very broad recommendations designed
to (1) improve specific business processes, (2) develop a more robust risk management program, and (3) take actions that would change
TVA’s culture to be more focused on developing sound business practices and driving compliance throughout the TVA organization.

Over the past year, we have seen TVA devote an extraordinary amount of time, money, and focus to addressing not only the
recommendations of the OIG, but also the recommendations of the McKenna law firm which in many respects paralleled our findings
and recommendations. TVA has extracted all of the detailed findings and recommendations, and they have cross-referenced the findings
to develop a Gap Analysis and a tracking matrix. TVA has detailed the specific actions that need to be taken to address all findings and
recommendations. They have contracted with a consultant to develop the necessary policies and procedures, and they are benchmarking
other companies, including identifying best practices related to dry ash storage. TVA has hired another consultant, McKensey and Company,
to analyze TVA’s culture and to assist TVA in effectively changing the culture that contributed to the Kingston ash spill. Beyond these
procedural changes are changes that are perhaps more difficult to measure but are just as significant. Changes in personnel, changes in the
tempo of how quickly things are done, and changes in attitudes are evident to us as we track the work of TVA management.

This all leads me to believe that TVA is marching in the right direction. As you know, we have been perhaps TVA’s harshest critic in terms
of how they handled coal ash storage and how they handled the crisis after the fact. In many ways, the Kingston ash spill was TVA’s darkest
hour. Our impression now, however, is that TVA management is not just reacting to criticism to emerge from a crisis, but they are committed
to transforming TVA into what we all hope it can be.

I would like to offer, however, some historical perspective on TVA in crisis. This is not the first time that TVA has been under the microscope
nor the first time that findings and recommendation for significant change have been made. The McKenna report aptly points out that in
                                                                                                                                                  t
1987, in response to TVA’s nuclear safety issues and sustained regular increases in TVA’s rates, The Southern States Energy Alliance Board        v
created an advisory committee which found some of the same problems with TVA in the 1980’s as we are finding today. The McKenna report            a
also notes that my office has issued reports citing process problems at TVA that continue to resurface over the years.
                                                                                                                                                  51
                                                                                                                                                  o
                                                                                                                                                  i
                                                                                    Semiannual Report | October 1, 2009 – March 31, 2010
                                                                                                                                                  g
     While it is true that none of the attempts to reform TVA focused on culture and risks to the extent that has been done in the aftermath of
     the Kingston spill, it is clear that there are some recurring themes in TVA history. One is that TVA has suffered from an insular culture that
     shuns views outside the “Valley.” This defensive and protectionist philosophy has produced a tunnel vision that eschews input that might
     have aided in changing the very culture that has contributed to TVA’s current woes. That same culture resisted system-wide standards and
     accountability. All of this is based on an underlying philosophy that TVA’s uniqueness as a hybrid government agency exempted it from
     adherence to standards and uniform process.

     My point here this morning is simply this: the challenge for TVA is a culture that is highly resistant to reform. The Kingston spill
     demonstrated that in a dramatic way. Changing a culture takes time. The same culture that existed on December 22, 2008, still exists today.
     Its residual effect is likely to be felt for years to come.

     Despite all of this, I remain optimistic that the current efforts to effect meaningful changes at TVA will be successful for four reasons:
     (1) the kinds of reforms being implemented at TVA are system-wide process changes that have worked well in private sector companies
     and that have not had the system failures TVA has experienced; (2) TVA management has demonstrated a willingness to solicit input from
     culture experts outside the Valley, and they appear to be taking all of this very seriously; (3) TVA management has recently gone through an
     extremely robust evaluation of risks that is unparalleled in TVA history; and (4) TVA management has made personnel changes that, to me,
     provide credible evidence of a commitment to do whatever it takes to get this right.

     Ultimately, the Office of Inspector General will measure the progress that TVA makes, and we will report the facts as we find them. We
     appreciate this Subcommittee’s efforts to protect the citizens of the Tennessee Valley by focusing on these important issues. My office will
     work with this Subcommittee to track TVA’s progress and to issue reports that may be helpful to you.

     I look forward to answering any questions that you may have.




t
v
a

52
o
i
     Semiannual Report | October 1, 2009 – March 31, 2010
g
GLOSSARY ABBREVIATIONS AND ACRONYMS
Disallowed Cost – A questioned cost         The following are acronyms and abbreviations widely used in this report:
that management, in a management            BFN. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Browns Ferry Nuclear Plant
decision, has sustained or agreed
                                            CAS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Compliance & Advisory Services
should not be charged to the agency.
                                            CEDARS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Center for Economic Development and
Final Action – The completion of all                                                                                          Resource Stewardship
management actions, as described in a
                                            CEO. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Chief Executive Officer
management decision, with respect to
audit findings and recommendations.         CIR. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Competitive Index Rate
When management concludes no action         COF. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Colbert Fossil Plant
is necessary, final action occurs when a
                                            EPA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Environmental Protection Agency
management decision is made.
                                            Ernst & Young . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Ernst & Young LLP
Funds Put To Better Use – Funds,
which the OIG has disclosed in an           FECA. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Federal Employees’ Compensation Act
audit report, that could be used            FERC. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Federal Energy Regulatory Commission
more efficiently by reducing outlays,
                                            FERS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Federal Employees Retirement System
deobligating program or operational
funds, avoiding unnecessary                 FISMA. . . . . . . . . . . . . . . . . . . . . . . . Federal Information Security Management Act
expenditures, or taking other               FOIA. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Freedom of Information Act
efficiency measures.
                                            FY. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Fiscal Year
Management Decision – The                   HR. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Human Resources
evaluation by management of the
audit findings and recommendations          IG Act. . . . . . . . . . . . . . . . . . . . . . . . . . Inspector General Act Amendments of 1988
and the issuance of a final decision by     IT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Information Technology
management concerning its response
                                            OEI. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Organizational Effectiveness Initiative
to such findings and recommendations.
                                            OIG. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of the Inspector General
Questioned Cost – A cost the IG
                                            OSHA . . . . . . . . . . . . . . . . . . . . . . . Occupational Safety and Health Administration
questions because (1) of an alleged
violation of a law, regulation, contract,   OWCP . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Workers’ Compensation Programs
cooperative agreement, or other             Program. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Hearing Conservation Program
document governing the expenditure
of funds; (2) such cost is not supported    SERP. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Supplemental Executive Retirement Plan
by adequate documentation; or (3) the       SOX . . . . . . . . . . . . . . . . . . . . . . . . . . Section 404 of the Sarbanes-Oxley Act of 2002
expenditure of funds for the intended
                                            STS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Standard Threshold Shifts
purposes was unnecessary
or unreasonable.                            TVA. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Tennessee Valley Authority
                                            TVARS . . . . . . . . . . . . . . . . . . . . . . . Tennessee Valley Authority Retirement System
Unsupported Costs – A cost that
is questioned because of the lack of        TVAP. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . TVA Police
adequate documentation at the time          WBN U2 Project . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Watts Bar Nuclear Plant Unit 2
of the audit.                                                                                                    Construction Completion Project                                            t
                                                                                                                                                                                            v
                                            WCF. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Widows Creek Fossil Plant
                                                                                                                                                                                            a
                                            WP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Winning Performance
                                                                                                                                                                                            53
                                                                                                                                                                                            o
                                                                                                                                                                                            i
                                                                                         Semiannual Report | October 1, 2009 – March 31, 2010
                                                                                                                                                                                            g
     WHAT IS TVA?
                                               >   Power Generation
                                               • A federal government corporation, created on
                                                  May 18, 1933, serving a seven-state region
                                               • Nation’s largest public power system
                                               • Composed of:
                                               	         - 29 hydroelectric plants
                                               	         - 1 pumped-storage plant
                                               	         - 3 nuclear sites
                                               	         - 11 coal-fired power plants
                                               	         - 11combustion turbine plants
                                               	         - 2 diesel generator sites
                                               	         - 1 wind energy site
                                               	         - 1 digester gas site
                                               	         - 1 biomass co-firing site
                                               	         - 15 solar energy sites
                                               • 33,716 megawatts (summer net capability)
                                               • 145 billion kW hours generated (FY 2009)
                                               • $11.1 billion in annual revenue (FY 2009) from sale of electricity
                                               • 12,219 employees (FY 2009)



                                               >   Transmission
                                               • 99.999 percent reliability for ten consecutive years
                                               • 80,000 square-mile service area
                                               • 15,954 miles of transmission line



                                               >   Customers
                                               • 155 power distributors (municipalities and cooperatives)
                                               • 56 directly served customers
                                               • 11 utility power exchange arrangements
                                               • 9 million people served



                                               >   Stewardship
                                               • Nation’s fifth-largest river system
                                               • 800 miles of commercially navigable water
                                                  transporting more than 50 million tons of cargo
                                               • 49 dams and reservoirs
t                                              • 293,000 acres of public land
v                                              • 11,000 miles of reservoir shoreline
a                                              • Over 100 public recreation facilities

54
o
i
     Semiannual Report | October 1, 2009 – March 31, 2010
g
The OIG is an independent organization charged with conducting
audits, inspections, and investigations relating to TVA programs
and operations, while keeping the TVA Board and Congress fully
and currently informed about problems and deficiencies relating
to the administration of such programs and operations.

The OIG focuses on (1) making TVA’s programs and operations
more effective and efficient; (2) preventing, identifying, and
eliminating waste, fraud, and abuse and violations of laws, rules,
or regulations; and (3) promoting integrity in financial reporting.

If you would like to report to the OIG any concerns about fraud,
waste, or abuse involving TVA programs or violations of TVA’s
Code of Conduct, you should contact the OIG Empowerline
system. The Empowerline is administered by a third-party
contractor and can be reached 24 hours a day, seven days a
week, either by a toll-free phone call (1-877-866-7840) or over
the Web at oigempowerline.com. You may report your concerns
anonymously or you may request confidentiality.

Report Concerns to the OIG Empowerline.




                 A confidential connection for reporting fraud,
                         waste or abuse affecting TVA.
               www.OIGempowerline.com
                   1-877-866-7840
                 EmPowerline™ is sponsored by the Office of the Inspector General
                              and operates independently of TVA.




                                                                                                                          t
                                                                                                                          v
                                                                                                                          a

                                                                                                                          55
                                                                                                                          o
                                                                                                                          i
                                                                   Semiannual Report | October 1, 2009 – March 31, 2010
                                                                                                                          g
                                   Tennessee Valley Authority
                                 Office Of The Inspector General
                                     400 West Summit Hill Drive
                                     Knoxville, Tennessee 37902
                                                  oig.tva.gov



Semiannual Report | October 1, 2009 – March 31, 2010
